<html>
<title> - ZOI, BRINKMAN, AND CASTLE NOMINATIONS</title>
<body><pre>[Senate Hearing 111-55]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 111-55
 
                 ZOI, BRINKMAN, AND CASTLE NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

THE NOMINATIONS OF CATHERINE RADFORD ZOI, TO BE AN ASSISTANT SECRETARY 
 OF ENERGY (ENERGY EFFICIENCY AND RENEWABLE ENERGY), THE NOMINATION OF 
     WILLIAM F. BRINKMAN, TO BE DIRECTOR OF THE OFFICE OF SCIENCE, 
   DEPARTMENT OF ENERGY, AND THE NOMINATION OF ANNE CASTLE, TO BE AN 
        ASSISTANT SECRETARY OF THE INTERIOR (WATER AND SCIENCE)

                               __________

                              JUNE 2, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources


                  U.S. GOVERNMENT PRINTING OFFICE
50-875                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Brinkman, William F., Nominee to be Director of the Office of 
  Science, Department of Energy..................................     7
Castle, Anne, Nominee to be an Assistant Secretary of the 
  Interior, Water and Science, Department of the Interior........     9
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     2
Shaheen, Hon. Jeanne, U.S. Senator From New Hampshire............     1
Udall, Hon. Mark, U.S. Senator From Colorado.....................     3
Zoi, Catherine R., Nominee to be an Assistant Secretary of 
  Energy, Energy Efficiency and Renewable Energy, Department of 
  Energy.........................................................     5

                                APPENDIX

Responses to additional questions................................    31


                 ZOI, BRINKMAN, AND CASTLE NOMINATIONS

                              ----------                              


                         TUESDAY, JUNE 2, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:20 p.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeanne Shaheen 
presiding.

OPENING STATEMENT OF HON. JEANNE SHAHEEN, U.S. SENATOR FROM NEW 
                           HAMPSHIRE

    Senator Shaheen. Good afternoon everyone. For those of you 
who follow the Energy Committee, you know that I'm not the 
person who usually sits here. Senator Bingaman and a number of 
members of the committee have been called to the White House.
    So I am going to be filling in and chairing this hearing. 
I'm Jeanne Shaheen, a Senator from New Hampshire. Let me just 
tell you what's going to happen this afternoon.
    We're going to introduce the nominees briefly. Then I'm 
going to ask Senator Murkowski if she would like to make a 
statement and turn it over to Senator Udall to introduce Anne 
Castle. Then ask you all to take an oath and answer several 
standard questions.
    Then we will ask each of you to give your testimony and 
open up for questions. So that's the process this afternoon. I 
will point out that the committee meets this afternoon to 
consider three nominations for offices in the Department of 
Energy and the Department of the Interior.
    The 3 nominees are Catherine Radford Zoi, to be an 
Assistant Secretary of Energy for Energy Efficiency and 
Renewable Energy.
    William F. Brinkman, to be the Director of the Office of 
Science at the Department of Energy.
    Anne Castle, to be an Assistant Secretary of the Interior 
for Water and Science.
    Ms. Zoi has worked on energy issues for the past 20 years. 
She helped establish the Energy Star program at the 
Environmental Protection Agency in the early 1990s and was 
Chief of Staff at the Council on Environmental Quality in the 
early years of the Clinton administration and served in senior 
government and private sector positions in Australia promoting 
renewable and sustainable energy.
    Most recently she's been the Chief Executive Officer of the 
Alliance for Climate Protection which promotes improved energy 
efficiency and increased use of renewable energy. I have to 
point out that she's also a Dartmouth grad.
    Dr. Brinkman is a distinguished physicist who spent 35 
years at Bell Laboratories and has been a Senior Research 
Physicist at Princeton University for the past 8 years. 
Welcome.
    Ms. Castle is a partner in the law firm of Holland and Hart 
in Denver, Colorado where she has specialized in the field of 
water rights and water quality law for over 25 years.
    All 3 of the nominees are extremely well qualified and will 
bring considerable expertise and decades of experience to the 
positions to which they've been nominated. I would also like to 
point out that for those of you who have your family here, 
welcome to all of your family members. We will ask you if you 
would like to introduce them before your testimony.
    [The prepared statement of Senator Bunning follows:]

   Prepared Statement of Hon. Jim Bunning, U.S. Senator From Kentucky

    Thank you Mr. Chairman. I would like to welcome all of the nominees 
today.
    You've all been nominated to important and challenging assignments 
at the Department of Energy and the Department of the Interior.
    We are at crossroads in our nation's energy policy. I have long 
said that we have resources and innovation to develop our domestic 
energy industry in a way that is mroe efficient and environmentally 
sound.
    We must, however, develop all of our resources and not get into a 
political ``name game'' of what energy sources to use. We must be 
careful not to let the government pick the winners and losers in this 
debate.
    Just turn on your TV's and you can see what success we have had in 
regulating our banking system.
    I believe that we should set goals and targets that industries 
should meet and then let the marketplace decide how we should best meet 
them.
    As my colleagues know, we are in the midst of writing landmark 
energy legislation. It will impact nearly every part of the energy 
industry and I hope will encourage the development of cleaner 
technologies for coal, nuclear energy and renewable.
    The nominees before us today will fill positions that are central 
to implementing these new policies.
    I look forward to working with these nominees in their new 
positions with the DOE and DOI.
    Thank you Mr. Chairman.

    Now, Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Senator Shaheen. I'm glad to 
say and I think our nominees will be glad to hear that all but 
one of the nominees that have been reported by this committee 
to date have now been cleared through the Senate calendar. I 
have always believed and I continue to believe the President 
deserves to have the people of his choice to fill the key 
positions in the administration.
    We've had some discussion over the past few weeks regarding 
the need for the administration and its nominees to give clear 
answers to legitimate questions regarding the policies and 
actions of the administration. I'm happy to say that, so far, 
we have resolved our concerns to most everyone's satisfaction. 
Today we've got a new set of nominees.
    I had an opportunity to look at your credentials and I 
welcome each of you to the committee here this afternoon, 
obviously new set of questions to be propounded to each of you 
respectively.
    It's probably fair to say that some of the issues that we 
raise may hit upon some controversial topics, and in some cases 
we may ultimately have differences of opinion. Again, it's my 
position that clear and open communication is the key to Senate 
confirmation here.
    I look forward to the conversation that we will have today. 
Again, I welcome you very much and appreciate your willingness 
to go through this process and to serve. Thank you.
    Senator Shaheen. Thank you.
    Senator Udall.

          STATEMENT OF HON. MARK UDALL, U.S. SENATOR 
                         FROM COLORADO

    Senator Udall. Thank you, Madame Chair. Good afternoon to 
all of you that have gathered here today. I have the pleasure 
of introducing an extraordinary Coloradan, Ms. Anne Castle for 
confirmation to the important post of Assistant Secretary for 
Water and Science.
    Anne has over 25 years of experience in water and natural 
resources law. The Colorado Bar voted her the best water lawyer 
in 2004. She's been listed in the best lawyers in America for 
water law both in 2007 and 2008. Those are the first years that 
the water category was actually included on that list.
    In 2008 she was selected by the Women's Vision Foundation 
to receive its Women's Woman of Vision award and was featured 
in Law Practice Management magazine in its leadership profile. 
She was also appointed by two Colorado Governors, Bill Ritter 
and Roy Romer, to address numerous questions of water access 
and water quality on the commissions that were detailed to do 
so. She has an impressive resume.
    I could go on at some length. But what sticks out the most 
about Anne is her proven capacity to build consensus among a 
broad range of stakeholders. As a lawyer her clients, and this 
is an interesting list, have included small and large municipal 
districts, waste water treatment providers, farmers and 
ranchers, mining companies, ski areas, real estate developers, 
water and conservation districts, lenders and operators of 
industrial and commercial facilities. That pretty well covers 
the water front, particularly in our State of Colorado.
    Madame Chair, if there's one thing I know about water, it 
takes a special kind of leader to reach consensus with such 
disparate groups and come back for more. This is the kind of 
leadership we need at Interior. It's the kind of leadership 
that our colleague Senator Salazar has provided there at 
Interior. It's the kind of leadership that Anne Castle offers.
    When you grow up in the desert, as I did, and as Anne has, 
you learn to treasure water. You realize it's really our most 
precious resource. As we combat the problems of water 
availability and water quality, the problems will only be 
exacerbated by climate change.
    We'll need someone with her vision, her experience. We need 
somebody who is capable of finding pragmatic solutions to 
difficult problems and building broad consensuses. Again, Anne 
has demonstrated this again and again throughout her career.
    These challenges of water availability and quality won't be 
isolated to the West as we move forward. I believe having a 
Westerner, especially one who is one of the Nation's foremost 
experts on water and natural resource law leading the fight 
offers a unique chance for success. So I'm very proud and 
pleased to support her confirmation. I Encourage the committee 
to do likewise.
    Welcome Anne. I look forward to your testimony.
    Senator Shaheen. Thank you, Senator Udall. Now the rules of 
the committee which apply to all nominees require that they be 
sworn in in connection with their testimonies. So I would ask 
if you all would please stand and then raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources be 
the truth, the whole truth and nothing but the truth?
    [All nominees answered in the affirmative.]
    Senator Shaheen. You may be seated. We also have some 
standard questions that we ask each of you to answer. So before 
you begin your statement I will ask three questions addressed 
to each nominee before this committee.
    We'll begin with Ms. Zoi.
    Will you be available to appear before this committee and 
other congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Ms. Zoi. I will.
    Senator Shaheen. Mr. Brinkman.
    Mr. Brinkman. I will.
    Senator Shaheen. Ms. Castle.
    Ms. Castle. I will.
    Senator Shaheen. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    Ms. Zoi. All of my personal assets have been reviewed both 
by myself and by appropriate ethics counselors within the 
Federal Government. I've taken appropriate action to avoid any 
conflicts of interest.
    Senator Shaheen. Thank you.
    Mr. Brinkman.
    Mr. Brinkman. All my personal assets have been reviewed 
both by myself and by appropriate ethics counselors within the 
Federal Government. I've taken appropriate action to avoid any 
conflicts of interest.
    Senator Shaheen. Ms. Castle.
    Ms. Castle. My investments, personal holdings and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I've taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    Senator Shaheen. Thank you. The third question. Are you 
involved or do you have any assets held in a blind trust?
    Ms. Zoi. No, I don't.
    Mr. Brinkman. No, I don't.
    Ms. Castle. No.
    Senator Shaheen. Thank you all. We will ask if each of you 
would begin your statements. Again we will begin with Ms. Zoi.
    If you would like to introduce any family members please do 
that before you begin your statement. Thank you.
    Ms. Zoi.

   STATEMENT OF CATHERINE R. ZOI, NOMINEE TO BE AN ASSISTANT 
 SECRETARY OF ENERGY, ENERGY EFFICIENCY AND RENEWABLE ENERGY, 
                      DEPARTMENT OF ENERGY

    Ms. Zoi. Thank you, Chairwoman Shaheen.
    I'd like to introduce my husband, Robin Roy, of nearly 22 
years. My daughter, Susha, who is about to graduate from high 
school next year. Her big brother couldn't be here because he 
is in exams at Stanford at the moment. But the real young 
leader of tomorrow, my niece, Haley who is 11 is with us today.
    Chairwoman Shaheen, Ranking Member Murkowski and 
distinguished members of the committee, it's an honor and a 
privilege to appear before you today as President Obama's 
nominee for Assistant Secretary of Energy Efficiency and 
Renewable Energy. I'm grateful to the President and to 
Secretary Chu for their confidence in entrusting me with this 
important and challenging assignment.
    I've been immersed in the energy field for over 25 years 
working across energy resources on a range of issues in the 
private, public and non-profit sectors. As a young geologist I 
worked for an independent oil company helping the exploration 
team identify new resource prospects. After studying natural 
gas markets and completing a graduate degree in engineering I 
joined what was then the largest investor owned utility in the 
country, Pacific Gas and Electric. I later moved to Washington 
where I worked as a consultant helping utilities manage their 
generating resources and plan for future needs.
    This broad experience in the private sector helped to 
inform the next phase of my career working in the Federal 
Government. After joining the U.S. EPA I was proud to lead the 
team that created the Energy Star program. A small team of 
committed government officials worked closely with the private 
sector partners to help unlock what I still believe is the 
single largest untapped and immediate energy opportunity in 
this country: improved efficiency.
    After serving in President Clinton's White House I moved 
with my family to Australia where I spent time in both the 
government and private sectors immersed in renewable energy 
startups, green power programs, sustainable urban planning and 
most recently smart metering. Returning to the U.S. I made my 
first foray into the non-private sector 2 years ago when former 
Vice President Gore asked me to be the founding CEO of his 
newly formed alliance for Climate Protection. Applying my 
management and startup experience, I worked with a bipartisan 
board of directors to prepare a business plan, raise funds, 
hire staff and build an education campaign that attracted over 
two million members.
    After 25 years of broad professional experience in the 
energy field, I'm extremely excited about the possibility of 
joining the Obama administration and bringing that experience 
to bear on the challenges that we face today. Meeting President 
Obama's energy and climate goals will require a broad range of 
energy resources. I support his vision and Secretary Chu's 
vision for a more diverse, environmentally sustainable and 
economically productive energy system.
    That system will, of course, continue to rely on nuclear, 
coal, oil and natural gas for some time. But we also need to 
rapidly increase our reliance on energy efficiency and 
renewable energy. If I'm confirmed as Assistant Secretary for 
Energy Efficiency and Renewable Energy it will be my goal to 
maximize our Nation's use of these resources.
    The potential is enormous. I strongly believe that 
increased use of both efficiency and renewables will not only 
improve our energy security and reduce carbon emissions, but it 
will also spur innovation, restore U.S. leadership in these 
industries and create jobs.
    Federal leadership is essential to creating the conditions 
for meeting these goals. If confirmed I look forward to joining 
Secretary Chu and my other DOE colleagues and working closely 
with the members of this committee. Together we can craft 
energy solutions that serve the American people well for this 
generation and for generations to come.
    [The prepared statement of Ms. Zoi follows:]

  Prepared Statement of Catherine R. Zoi, Nominee to be an Assistant 
Secretary of Energy, Energy Efficiency and Renewable Energy, Department 
                               of Energy

    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
Members of the Committee, it is an honor and a privilege to appear 
before you today as President Obama's nominee for Assistant Secretary 
of Energy for Energy Efficiency and Renewable Energy. I am grateful to 
the President and to Secretary Chu for their confidence in entrusting 
me with this important and challenging assignment. If confirmed, I look 
forward to working with the members of this Committee and the talented 
leadership team at the Department of Energy to deliver on the 
President's vision of an energy future that is secure, economically 
robust and environmentally sound.
    I would like to introduce my husband of nearly 22 years, Robin Roy, 
and my daughter Susha, who will be graduating from high school next 
week. Susha's big brother, Wyatt, is in exam period at Stanford and 
couldn't be here today.
    I have been immersed in the energy field for over 25 years, working 
across energy resources on a range of issues in the private, public and 
non-profit sectors. As a young geologist I worked for an independent 
oil company, helping the exploration team identify new resource 
prospects. After studying natural gas markets and completing a graduate 
degree in engineering, I joined what was then the largest 
investor?owned utility in the country--Pacific Gas and Electric--and 
worked on a wide range of planning issues: cogenerating power from the 
vast enhanced oil recovery operations of California, pricing natural 
gas in newly deregulated markets, and demand forecasting that takes 
account of shifting technology and customer behavior. I later moved to 
Washington, where I worked as a consultant on electricity systems, 
helping utilities manage their generating resources and plan for future 
needs.
    This broad experience in the private sector helped to inform the 
next phase of my career, working in the federal government. After 
joining the U.S. EPA, I was proud to lead the team that created the 
Energy Star program. A small team of committed government officials 
worked closely with private sector partners to help unlock what I still 
believe is the single largest untapped and immediate energy opportunity 
in this country: improved efficiency. On the strength of this vast 
potential for energy efficiency, in 1991 our team demonstrated to the 
White House of President George H. W. Bush that signing the 
International Climate Convention at the Earth Summit in Rio made sense 
for the nation--both economically and environmentally.
    After serving in President Clinton's White House, I moved with my 
family to Australia--where I spent time in both the government and 
private sectors, immersed in renewable energy start-ups, green power 
programs, sustainable urban planning and most recently, smart metering.
    Returning to the United States, I made my first foray into the non-
profit sector two years ago when former Vice President Gore asked me to 
be the founding CEO of his newly-formed Alliance for Climate 
Protection. Applying my management and start-up experience, I worked 
with the bipartisan board of directors to prepare a business plan, 
raise funds, hire staff, and build an education campaign that attracted 
over two million members.
    After 25 years of broad professional experience in the energy 
field, I am extremely excited about the possibility of joining the 
Obama administration and bringing that experience to bear on the 
challenges we face today.
    Meeting President Obama's energy and climate goals will require a 
broad range of energy resources, and I support his vision and Secretary 
Chu's vision for a more diverse, environmentally sustainable and 
economically productive energy system. That system will of course 
continue to rely on nuclear, coal, oil and natural gas for some time, 
but we also need to rapidly increase our reliance on energy efficiency 
and renewable energy. If I am confirmed as Assistant Secretary for 
Energy Efficiency and Renewable Energy at the Department of Energy, it 
will be my goal to maximize our nation's use of these resources.
    The potential is enormous. I strongly believe that increased use of 
both efficiency and renewables will not only improve our energy 
security and reduce carbon emissions--it will also spur innovation, 
restore U.S. leadership in these industries, and create jobs. The 
Recovery Act makes a significant down payment in this regard. By 
continuing to match our goals for clean energy with the need to grow 
our economy, we can direct investment into energy infrastructure that 
can be ramped up and deployed quickly and efficiently.
    Federal leadership is essential to creating the conditions for 
meeting these goals. If confirmed, I look forward to joining Secretary 
Chu and my other DOE colleagues in working closely with the members of 
this committee. Together, we can craft energy solutions that serve the 
American people well, for this generation and for generations to come.

    Senator Shaheen. Thank you.
    Mr. Brinkman.

STATEMENT OF WILLIAM F. BRINKMAN, NOMINEE TO BE DIRECTOR OF THE 
            OFFICE OF SCIENCE, DEPARTMENT OF ENERGY

    Mr. Brinkman. Thank you. I'd like to introduce you to my 
wife, Sabilla and her daughter, Stephanie and her 
granddaughter, Becca. They're sitting with us today.
    Chairman Shaheen, Senator Murkowski, distinguished members 
of the committee, it's an honor and privilege to appear before 
you today as President Obama's nominee for the Director of the 
Office of Science in the Department of Energy. I want to thank 
President Obama for asking me to join his administration and 
Secretary Chu for his confidence in me to become part of the 
Department of Energy. I look forward to working with you and 
various parts of the government in advancing United States 
leadership in science and technology.
    I joined Bell Laboratories early in my career. At first I 
conducted theoretical research in physics and materials, but 
soon went into research management. There I learned how to 
recruit and support some of the best researchers in the field 
and inspire them to greater accomplishments. It was a truly 
exciting time to be part of what was probably the best research 
institution in the world. During my time at Bell Laboratories 
in management there were--the research there led to two Nobel 
prizes, one of which was Secretary Chu's, and to a Japan Prize.
    As AT and T began to split into smaller units, it became 
imperative to drive research results toward applications. In 
the 1990s, I led a research organization to develop many of the 
components and systems used in optical communications today. 
Besides that we worked on a broad set of applications including 
semiconductor processing and wireless communications.
    We started an internal venture organization that 
transformed orphaned technologies within the company into new 
commercial ventures. The experience gained in this work will, I 
believe, be highly valuable as Director of the Office of 
Science where it is very important to solve some of the most 
pressing societal problems while also ensuring that fundamental 
research is encouraged and supported.
    In the mid-1980s I served as Vice President of Research at 
Sandia National Laboratories. It was an opportunity to get 
firsthand knowledge of how a national laboratory functions. I 
am proud of the accomplishments during my time at Sandia 
including the expansion of the computer science effort, which 
was just beginning in those days. This assignment and the many 
national laboratory advisory committees on which I've 
subsequently served gives me insights into the true strengths 
of the DOE and its laboratory system.
    In conclusion, I look forward to working with you and 
President Obama's administration in maintaining the United 
States at the forefront of science and technology and in 
pursuing the administration's energy agenda both of which are 
vital to the prosperity and security of our Nation. Thank you.
    [The prepared statement of Mr. Brinkman follows:]

 Prepared Statement of William F. Brinkman, Nominee to be Director of 
              the Office of Science, Department of Energy

    Chairman Bingaman, Senator Murkowski and distinguished members of 
the committee, it is an honor and privilege to appear before you as 
President Obama's nominee for Director of the Office of Science in the 
Department of Energy.
    I want to thank President Obama for asking me to join his 
administration and Secretary Chu for his confidence in me to become 
part of the Department of Energy. I have followed Secretary Chu's 
career from the beginning and admire his intelligence and 
accomplishments. If confirmed, I would be proud to join him and the 
exceptional team that he is assembling to work tirelessly to advance 
the revolution in energy technologies, to understand nuclear 
technologies, and to continue basic scientific research in the 21st 
century.
    The Office of Science, with its ten National Laboratories and 
broadly funded university research program, has been the source of many 
outstanding discoveries that have defined our current understanding of 
the most fundamental aspects of nature, have helped define the 
structure of the cosmos and have led to a deep understanding of many 
important materials. The National Laboratories have established 
facilities that have played crucial roles in characterizing both the 
basic constituents of nature, such as quarks and gluons, but also 
materials such as the high-temperature superconductors. The new 
development of an x-ray laser at SLAC National Accelerator Laboratory 
is just one more example of these accomplishments. The laboratories 
have also contributed to the technical advances in energy, nuclear 
security and nonproliferation. There are many more discoveries to be 
made, and I look forward to being a part of those discoveries.
    I would bring to the Department decades of experience in managing 
scientific research in government, academia and the private sector. 
After graduating from the University of Missouri and spending a year as 
a National Science Foundation postdoctoral fellow at Oxford, I joined 
Bell Laboratories, where I spent most of my career. In the early days I 
was doing theoretical physics but soon began a career in management. I 
learned how to hire and support some of the best researchers in the 
field and to inspire them to greater accomplishments. This was truly an 
exciting time to be a part of what at that time was perhaps the best 
research institution in the world. Research at Bell Laboratories during 
my tenure led to two Nobel prizes, one of which was Secretary Chu's, 
and to a Japan Prize.
    As the company began to split into smaller units it became 
imperative to drive toward applications, and I led a research 
organization in the 1990's that developed many of the components and 
systems used in optical communications today. In addition, we worked on 
semiconductor processing and wireless communications. We also started 
an internal venture organization that took orphaned technologies and 
formed new ventures. I believe that this experience will be highly 
valuable at the Office of Science, where I would seek to continue the 
tradition of strong fundamental research while at the same time working 
to apply that research to solving our energy problems.
    In addition to working at Bell Labs, I have experience with 
supervising government research and with the national laboratory 
system. In the middle 1980s I served as vice president of research at 
Sandia National Laboratories. This was an opportunity to get first-hand 
knowledge of how our national laboratories function. I am proud of the 
accomplishments during my time at Sandia, including the expansion of 
the computer science effort. This assignment, and the many laboratory 
advisory committees on which I subsequently have served, gives me 
insights into the true strengths of the DOE and its laboratory system.
    Although the DOE has had many research successes and 
accomplishments, I believe that we can improve management, and the 
relationship between headquarters and the laboratories. If confirmed, I 
will strive to make the management as straightforward and effective as 
possible, recognizing the difficulty inherent in the unique, cutting 
edge projects that DOE takes on.
    We must also improve science education of our youth. The importance 
of science and engineering education to our Nation's prosperity and 
security has been emphasized in numerous recent studies, for example, 
the recent ``Rising Above the Gathering Storm'' study by the National 
Academies of Science and Engineering. DOE's Office of Science, through 
its university and national laboratory programs, provides significant 
opportunities for students and young people that help attract young 
people to science, engineering and technology work.
    Powerful nations have relied on new technologies to allow them to 
stay ahead in the world, and the history of the US has been no 
different. However, we now find a world in which science and technology 
is being pursued by many nations while the U.S. interest has seemed at 
times to have waned. I believe that President Obama is determined to 
change this situation and place a new emphasis on a strong scientific 
and technical enterprise. We are clearly confronted with difficult 
challenges whether in energy, nonproliferation or nuclear security. 
However, we must also advance our basic knowledge to explore the 
possibilities of new sources of energy such as magnetic fusion and 
fusion/fission and to discover new approaches to batteries and 
photocells. We must continue exploring what makes up our universe--what 
is dark matter and dark energy? Why is the universe expanding more 
rapidly? In materials we must find out what we can do with 
nanoengineered materials. They show great promise to change much of our 
lives, as have many materials advances before them.
    In summary, if confirmed, I will bring to the Office of Science a 
commitment to scientific research and development that is based on many 
years of experience. My thanks to the chairman and members of the 
committee for giving me this opportunity to speak with you and, if 
confirmed, I will do my best to work with you and the rest of Congress 
to move forward on the issues discussed above.

    Senator Shaheen. Thank you, Mr. Brinkman.
    Ms. Castle.

STATEMENT OF ANNE CASTLE, NOMINEE TO BE AN ASSISTANT SECRETARY 
 OF THE INTERIOR, WATER AND SCIENCE, DEPARTMENT OF THE INTERIOR

    Ms. Castle. Thank you, Madame Chairwoman. Let me introduce 
my husband, Frank Davies and our daughter, Beth and my brother 
Tom Castle. Our son, Chris, is also studying for his finals in 
California in college, so he couldn't be with us today.
    I want to thank Senator Udall for his lovely introduction. 
I am humbled by the confidence shown in me by President Obama 
through his nomination of me for Assistant Secretary for Water 
and Science. I'm very grateful for the support of my family and 
my friends and my colleagues. That support has allowed me to be 
here today.
    My career in water law started with my graduation from the 
University of Colorado law school. But my interest in water 
resources and administration started well before that. I grew 
up sailing and swimming in a small Colorado lake. My father 
served on the board of the water district that provided water 
to our houses in the community and to the lake itself. Our 
family skied in the Colorado Mountains where the winter snow 
pack forms the reservoir that supplies downstream watersheds 
later in the year.
    This committee and the Congress have recognized the 
challenges confronting western water supplies through the 
SECURE water provisions of the Omnibus Public Lands Act. That 
law calls for the development of climate change adaptation 
strategies for major river basins so that whatever the future 
brings our water systems can adjust. The two bureaus within the 
Water and Science Office, the Bureau of Reclamation and the 
U.S. Geological Survey, are critical players in those efforts. 
I'm looking forward to being involved in this process that, I 
believe, is critical to the future of our country.
    Water conservation is increasingly part of the national 
discussion. Conservation of water equals conservation of 
energy. Conservation of energy also decreases energy related 
water-use. The Bureau of Reclamation should be leading the way 
in crafting those conservation strategies.
    What a treat to have the opportunity to work with the USGS. 
My father-in-law started his career as a geologist with the 
USGS in Alaska. My husband followed in his father's footsteps 
as a geologist as well. As an agency without regulatory or 
management responsibilities the USGS is perfectly positioned to 
provide objective, science-based research that can form the 
basis for policy decisions.
    I've had some management experience that should be valuable 
in this effort. In 2001 my partners elected me to lead the law 
firm of Holland and Hart which now has about 420 lawyers and a 
staff of over 800. I'd like to think I learned a lot about 
leading people and earning their trust through hard work and 
honest communication.
    A summary of my background wouldn't be complete without 
mentioning my involvement in legal services. Ever since I 
became a lawyer I've worked with the programs that provide 
representation to poor people in Colorado. I've been on the 
boards of various legal aid organizations for over 25 years. I 
believe very strongly that lawyers have an ethical 
responsibility to provide their knowledge and expertise to 
people who can't afford to pay.
    All of these efforts, legal, management and public service, 
require the reconciling of disparate interests, fostering a 
willingness to recognize the validity of the claims of others 
and to compromise to achieve the greater good. The water and 
science issues facing Interior are difficult, complex and even 
emotional. I'm hopeful that the experiences that I've had in 
the past will be useful in addressing them.
    So thank you for the opportunity to come before you. I look 
forward to your questions and to working with the committee in 
the future.
    [The prepared statement of Ms. Castle follows:]

Prepared Statement of Anne Castle, Nominee to be an Assistant Secretary 
     of the Interior, Water and Science, Department of the Interior

    Thank you, Mr. Chairman, Senator Murkowski, and Members of the 
Committee. I am thrilled and honored to come before you as President 
Obama's nominee for Assistant Secretary of the Interior for Water and 
Science. I am truly humbled by the confidence shown by President Obama 
and Secretary Salazar through their nomination of me for this position. 
And I'm very grateful for the support of my family and friends and 
colleagues that has allowed me to be here today.
    My career in water law started with my graduation from the 
University of Colorado law school in 1981, but my interest in water 
resources and administration started well before that. Growing up in 
Colorado, you can't help but be aware of the key role that water plays 
in our lives: the availability or scarcity of water has shaped the 
development of our cities and industries as well as the American West's 
incomparable environment. I grew up sailing and swimming in a small 
Colorado lake, and my father served on the board of the water district 
that supplied water to our houses and that lake. Our family skied in 
the Colorado mountains, where the winter snowpack forms the reservoir 
that supplies water later in the year to the downstream watersheds.
    I learned early on about the relationship between the increasing 
use of water by development and people and the impact of that water use 
on the streams and lakes and mountains that are an important reason the 
development is occurring. The shortages of water in the West over the 
last decade have caused even more strain on an already stressed 
resource, and have forced us to reevaluate the operations of our water 
systems to allow them to fulfill the multiple uses that they have come 
to serve. As an attorney specializing in water law, I have learned 
first hand about the level of intensity inherent in any discussions 
concerning water allocation, and the importance of the involvement of 
all stakeholders to reach appropriate resolutions. I have also had the 
opportunity to learn the ground rules set by federal, state, and local 
governments governing management of this most critical of natural 
resources.
    I know that this Committee has also recognized the challenges 
confronting western water supplies, and earlier this year Congress 
enacted the Secure Water Act provisions of HR 146, now Public Law 111-
11. This law calls for an intense and thorough process for evaluating 
the available science and developing climate change adaptation options 
for major river basins so that whatever the future brings, our water 
systems can adjust. The two bureaus within the Water and Science 
office, the Bureau of Reclamation and the US Geological Survey, are 
critical players in this effort, and I look forward to being involved 
in that process which I believe is crucial to the future of our 
country.
    Water conservation is increasingly a part of the national 
discussion. Conservation of water equals conservation of energy, and 
conservation of energy decreases related water use. With the demand of 
a growing population on water supplies and the potential for long term 
diminution of those water supplies, it is incumbent on us to find new 
ways of conserving water. I believe that the Bureau of Reclamation and 
the Department of Interior can and should lead the way in that effort.
    And what a thrill to have the opportunity to work with USGS. My 
father-in-law started his career as a geologist with USGS and my 
husband followed in his father's footsteps and became a geologist as 
well. As a result, we have always had friends who work with USGS and I 
have come to recognize the great professionalism and commitment of the 
scientists in that agency. As an agency without regulatory or resource 
management responsibilities, USGS is perfectly positioned to provide 
objective, unbiased, science-based research and analysis to form the 
basis for policy decisions. We are fortunate to have the world's 
leading earth scientists as our advisors on crucial climate change 
issues and how best to deal with them.
    During my legal career, I have had the opportunity to work with 
water users of all types, from farmers and ranchers to coal mines and 
ski areas, real estate developers to conservation groups, 
municipalities to water protection districts. I was the lead counsel in 
the first claim by a Colorado city for what was then a new, statutorily 
sanctioned, instream flow water right, for a boating course through the 
city of Pueblo.
    Colorado Governor Bill Ritter appointed me to be the legal advisor 
to a task force he established early on in his administration to 
attempt to reconcile the water needs of farmers in the South Platte 
River Basin using junior priority ground water wells with the 
traditional demands of the senior ditch owners and the prior 
appropriation system. Part of the task was to identify any legislative 
fixes for the problems, and several of the suggestions have 
subsequently been enacted.
    I was also appointed to serve on the Colorado Ground Water 
Commission for two 4-year terms, and was able to learn a tremendous 
amount about the practical problems faced by farmers who rely on 
underground water for irrigation of crops, and the legal framework they 
operate under.
    Leading two important agencies like Reclamation and USGS is not a 
task for the faint-hearted. If confirmed, my previous management 
experience will be valuable in this effort. In 2001, the partners at my 
law firm of Holland & Hart elected me as the leader of the firm. 
Holland & Hart has about 420 lawyers and a total staff of 800, with 13 
offices in 6 states and the District of Columbia. During my term as 
chair of the firm, I learned a lot about leading people, gaining their 
trust by hard work and honesty, and the importance of clear and honest 
communication. I also learned to take advantage of the expertise of 
others, to avoid reinventing the wheel, to get objective background 
information and make a decision. I consider myself a team player as 
well as someone who can lead the way but let others shine.
    This summary of my background would not be complete without telling 
you about my involvement with legal services. Since the beginning of my 
legal career, I have been involved with the federally funded legal aid 
program that provides representation to poor people in Colorado. I have 
been on the board of the program for 25 years. I chaired the boards of 
the private fundraising organization for legal aid, the Colorado Legal 
Aid Foundation, and I currently serve on the board of the group that 
administers the Interest on Lawyer Trust Account funds for the state. I 
believe very strongly that lawyers have an ethical responsibility to 
provide their knowledge and expertise to people who cannot afford to 
pay them, and I have tried to carry out that belief both in pro bono 
legal work and by assisting the organizations that also have that 
mission.
    All of these efforts--legal, management, and public service--
required the building of consensus, the reconciling of disparate 
interests, and fostering a willingness to recognize the validity of 
other claims and to compromise to achieve a greater good. The water and 
science issues facing Interior and the country are difficult, complex, 
and even emotional. I am hopeful that the experiences I have had in the 
past will be useful in addressing them.
    If confirmed, I hope to start working immediately on the very 
important and cutting edge work of the Bureau of Reclamation and the 
U.S. Geological Survey.
    Thank you for the opportunity to come before you and provide a 
snapshot of my background. I look forward to your questions and to 
working with you in the future.

    Senator Shaheen. Thank you each for your testimony. We'll 
now go to the question portion of the program.
    Ms. Castle, recognizing that you grew up in the West and 
that the West certainly has water challenges that are unique. 
Can you talk a little bit about how you see Interior addressing 
those challenges and how they compare to some of the challenges 
that we have in the Northeast when it comes to water?
    Ms. Castle. Certainly. The Bureau of Reclamation's mission 
has been focused on the Western states under its authorizing 
authority. But it does have some planning and management 
authority for use throughout the United States. I think the 
U.S. Geological Survey is the key agency that provides science-
based services in all 50 states and has been working 
particularly in some of the Eastern states to provide 
information on water demands and on water resource 
availability.
    For example, I know that the USGS has relatively recently 
completed a study about the demand for the sea coast area of 
New Hampshire. That that research can be used for planning for 
future water supplies. The USGS has also characterized the 
water resources in various underground aquifers in the Eastern 
states, again forming the basis for decisions about alternative 
water supplies.
    So those are some of the areas where I think that those two 
agencies within the Department of the Interior can be useful. I 
also think that both of those agencies have very important 
roles to play in assessing climate change and coming up with 
adaptive management strategies for dealing with a future of 
reduced water supplies. That effects, as you know, the entire 
country.
    Senator Shaheen. Thank you. Mr. Brinkman, I was very 
impressed when I first met with Secretary Chu because he talked 
about the number of scientists who are being attracted back to 
the Department of Energy and to government service. So I think 
you're in that category of people that he was talking about. So 
we're delighted that you're willing to take this on.
    One of the things he also talked about was the potential 
for the Department of Energy to take on, in a public sector, 
some of the role that Bell Labs, for example, played in looking 
at applying the research to the actual practice. I wonder if 
you could talk a little bit about what role you see the 
Department of Energy playing in doing that and how you see that 
happening?
    Mr. Brinkman. Thank you. Of course the Department of Energy 
has played that role in a number of cases already. I mean it 
has certainly been involved with the development of 
photovoltaics. It's also been involved with the development of 
sequestration.
    We both believe that it could do a lot more. In particular 
we're hoping to take the Office of Science and its programs and 
meld them better together with the programs from and the more 
applied parts of the organization. Making that mix work 
cooperatively is one of our goals.
    That's one of the kinds of things that you really have to 
work quite hard on to get people on both sides of the street so 
to speak, to talk to each other, work together, and be 
confident with each other that you are not going to walk away 
as soon as the problem gets difficult. We both have experience 
in that. We're looking forward to trying to do that more 
successfully within the Department.
    Senator Shaheen. Thank you. Ms. Zoi, I certainly agree with 
you that energy efficiency is the fastest, cheapest way for us 
to address our energy needs. But it seems to me that it's more 
of a challenge than it ought to be as we look at the potential 
savings there. So, can you talk about how you would address 
this obstacle to encouraging more energy efficiency?
    Ms. Zoi. Thank you, Senator. There's a combination of 
things. In my 20 years of experience in the efficiency arena 
it's a combination of regulations like appliance standards, 
that simply take lousy products off the market so the consumers 
can save money on good things and education that makes it easy 
for people to save.
    The Energy Star program, 18 years ago, was built on the 
back of making computers automatically go to sleep after a 
period of inactivity. Rather than continuing to try to convince 
people that they should turn their things off, we could just 
let technology help us out.
    Senator Shaheen. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madame Chair. I'll go to you, 
Ms. Zoi. You are still on the hot seat here and I'll begin my 
questioning for you.
    The first question is more clarification of statements that 
you've made in the past, particularly about oil and coal. It's 
my understanding that you have asserted that the oil and coal 
lobbies are blocking the switch to clean power. Then in a 
letter from last year you went on further to write that ``oil 
and coal companies and interests have spent hundreds of 
millions of dollars in an effort to convince the American 
people that they are focused on solving our energy and climate 
crisis. On its face these assertions by oil and coal defy all 
reason.''
    I wanted to ask you about that statement. I do happen to 
believe that the oil industry and the coal industry have been 
working very hard to ensure that their emissions are reduced. 
They are contributing not only to our energy security by 
providing domestic production, but they're trying to do so in a 
much more responsible way.
    So if I could just have you give me a little more clarity.
    Ms. Zoi. Sure.
    Senator Murkowski. As to those comments on coal and oil 
industries, and perhaps what you consider their lobbying 
efforts to be.
    Ms. Zoi. I appreciate the opportunity. There's no doubt 
that oil and coal are a significant part of the energy 
landscape and they have been for the last century. They will 
continue to be, as I said in my opening statement.
    I may be even more ambitious about what they can contribute 
to solving climate change than you. Because I'm looking forward 
to the possibility of partnering with the oil and coal 
industries in getting the solutions out into the marketplace 
very, very quickly. Some of the companies within the sector 
have been very good at making investments in clean energy and 
in non carbon-emitting resources.
    However, when you look at the amount of investment in those 
clean energies relative to the investments in the carbon-based 
technologies, there's not yet. I'm hopeful that if I'm 
confirmed as Assistant Secretary for Energy Efficiency and 
Renewable Energy that we can tap into the commercial success 
and the bigness of the oil and coal industry to help, to have 
that part of the energy portfolio get involved in managing this 
transition to an energy economy that is, frankly, less carbon 
intensive.
    Senator Murkowski. Let me make sure that I understand. Are 
you suggesting that it should be the oil and gas industry that 
pays for the technologies for all renewables going forward 
through, say, increased taxes on that industry?
    Ms. Zoi. No, not at all. What I'm suggesting is that 
there's an enormous business opportunity. That a company that 
is, for example, an oil company is very well positioned to get 
involved in enhanced geothermal research.
    In finding and tapping into the hundred gigawatts of 
potential power in geothermal that gas companies have has great 
potential. I'm quite excited about the prospect for carbon 
capture and sequestration with the coal industry. So there are 
business opportunities for the fossil fuel sector to lead this 
transition.
    Again, I'm very hopeful that the government can partner 
with those businesses in crafting a way forward.
    Senator Murkowski. Let me ask you another question here. 
You obviously are closely following the debate. There is 
discussion here in Congress on both the Senate side and the 
House side about renewable tax credits, the cap and trade 
proposal that is advancing on the other side, discussion here 
in this committee and over in the House on a renewable 
electricity standard; all those things that are designed to 
advance those technologies and to reduce our overall emissions.
    If a cap and trade system were to be enacted, do you 
believe that that indirect regulation of greenhouse gases 
through the Endangered Species Act, through NEPA, through 
renewable fuel standards, through RES, through section 526 or 
the Clean Air Act, are still necessary?
    Ms. Zoi. The President and Secretary are very supportive of 
the cap and trade bill. The cap and trade is designed to create 
an economy-wide framework and a glide path toward gradual 
reductions. The renewable electricity standard does something 
else that's a little bit different. I'm getting short on time, 
but I actually think that they're complementary policy 
instruments.
    Senator Murkowski. My time is expired too, but I'll just 
finish the question. You say that an RES is complementary. But 
we also have other Federal acts, as I mentioned. The ESA is the 
one that we in Alaska have been quite concerned about. I don't 
think regulations of emissions through the Endangered Species 
Act is a good idea.
    The nominees that we have had before us, to this point in 
time, have all concurred that they don't think it's a good 
idea. But it is one of those tools that is out there. I think 
it is an appropriate question to ask if we were to move to an 
industry wide system whether or not there would still be 
further efforts to regulation of emissions through these 
multiple Federal acts. I'll go back for a second round.
    Senator Shaheen. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Madame Chairwoman. Again, welcome 
to the panel. I would ask your indulgence.
    I'm scheduled to preside on the floor of the Senate in a 
few minutes. So I'm not going to be able to use the whole 
amount of my time. I would like to submit some additional 
questions for the record.
    But starting with Ms. Zoi, I want to thank you for your 
willingness to serve in the public sector. I look forward to 
working with you when it comes to the National Renewable Energy 
Laboratory. In particular I note the upcoming year's budget 
does not include as much research in the hydrogen technology 
area and would like to pursue that conversation a little bit 
further.
    I know that there are some significant questions being 
raised about hydrogen in vehicles in particular. But it may 
have real application, as you know, in generating facilities 
'backup power. But I think we ought to continue to do that 
research because I think it has a long term potential.
    Moving to Mr. Brinkman. I note that at least it's my 
opinion that the DOE has not done as much as it could in the 
SBIR world with small businesses. That's a particular area I 
think you have expertise and a proven track record. So I would 
urge you to take a look at what more can be done there as we 
look to incubate all of these exciting new technologies out 
there, not just in the energy space, but as you know in the IT 
space, biomedical and so on.
    Ms. Castle, thank you again for doing Colorado proud. I 
know we're going to work together on the Southeastern conduit 
for the Lower Arkansas Valley. It's of particular interest to 
Secretary Salazar given that that's his homeland. He knows the 
challenges there of keeping faith the farmers who want to 
continue to produce our food.
    So again, thank you for, all three of you, being here and 
your willingness to serve in the public sector. Thanks.
    Ms. Castle. Thank you, Senator.
    Senator Shaheen. Thank you, Senator Udall.
    Senator Bunning. Thank you, Madame Chairman. Ms. Zoi, more 
than half of the electricity consumed in the United States is 
produced by coal, 51 percent approximately. In my home State of 
Kentucky, 93 percent of our electricity comes from coal fired 
generation.
    I realize that there are environmental concerns with coal. 
I have long said that the future of coal is clean coal. In the 
past I have authored legislation and supported incentives for 
the development of coal with advanced technologies. Through a 
combination of commercially available carbon capture technology 
and blended feedstock of coal and biomass we can substantially 
reduce our emissions.
    While working for the Alliance for Climate Protection you 
endorsed several anti coal campaigns including one that claimed 
that there is no such thing as clean coal. Do you still hold 
this position? Do you support clean coal? Would you support 
projects that combine carbon capture with a blend of feedstock 
of biomass and coal?
    Ms. Zoi. Thank you, Senator.
    Senator Bunning. There's a bunch of questions there.
    Ms. Zoi. I'm sure you'll remind me if I forget.
    Senator Bunning. I will follow the answers.
    Ms. Zoi. First of all, the President is fully supportive, 
as is the Secretary of Energy, of continued use of coal. As a 
geologist, I have no doubt that we have the capacity to capture 
the carbon pollution and safely store it underground.
    Senator Bunning. Compared to what is now being used and/or 
the alternative which is natural oil or oil based or for that 
matter natural gas?
    Ms. Zoi. Fifty percent of our electricity comes from coal 
plants now. Applying that same sort of basic technology but 
capturing the carbon pollution, separating it out and storing 
it underground, I believe that's a possibility. I'm looking 
forward to working with industry.
    It's actually not in my portfolio interestingly, not 
withstanding my background. My responsibilities are going to be 
in energy efficiency and renewable energy. But the President 
and the Secretary have been very articulate of their support 
for quickly commercializing carbon capture and sequestration 
technologies. Because that is what makes coal truly clean. If 
we can capture the carbon pollution, coal will continue to be 
able to play a very large role in our electricity mix going 
forward.
    Senator Bunning. My problem is that the Department of 
Energy, in its renewable portfolio standards and some things 
doesn't mention nuclear or coal anywhere, not in any bill, not 
in a bill that this committee is considering. So how do we get 
from where we're at now to where we want to get to if we don't 
use coal and/or nuclear, particularly nuclear? It's not 
mentioned in any of our things.
    Ms. Zoi. While it's not in the portfolio for this 
particular Assistant Secretary brief, there are other offices. 
There's an office that focuses on nuclear energy, and another 
office that focuses on fossil energy.
    There are different Assistant Secretaries that will be 
coming before this committee sometime in the future whose sole 
purpose is to continue to make sure that those resources are 
used and used well in the economy. The President and the 
Secretary of Energy have made a commitment to an increased use 
of a diverse set of resources. So I have little doubt that the 
administration and you are going to be in wild eyed agreement 
on, continued use of diverse resources.
    Senator Bunning. Wild eyed agreement? That will be the day.
    [Laughter.]
    Senator Bunning. Ms. Castle, I'd like to ask you. On 
December 3, 2008, the Office of Surface Mining Reclamation and 
Enforcement OSM issued a final rule clarifying the disposal of 
excess spoil created by coal mining operations. The rule 
required mine operators avoid disturbing streams to the 
greatest extent possible and clarify when mine operators must 
maintain an undisturbed buffer between mines and adjacent 
streams.
    Secretary Salazar has asked the Department of Justice to 
file a plea with the U.S. District Court requesting that the 
rule be vacated. Aside from striking a balance between the 
environmental protections this new rule clarified a long 
standing dispute over how the surface mining laws should be 
applied. What is your view on the new law? If vacated would you 
support implementation of the previous stream buffers zone 
regulations or initiate a new rulemaking process?
    Ms. Castle. Thank you for your question, Senator. I have to 
admit, however, that I am not familiar with the new law. It's 
something that I believe would fall under the purview of a 
different office within the Department of the Interior.
    But it's something that I know is the subject of continuing 
discussion. I'd be happy to look into the question and get back 
to you on it.
    Senator Bunning. I'd appreciate that very much.
    Ms. Castle. Thank you.
    Thank you, Madame Chairman.
    Senator Shaheen. Thank you. I would like to pick up on 
Senator Udall's comment about the importance of small business. 
Small business he referenced the SBIR which I think I would 
agree with him, has been very successful at encouraging new 
technological development.
    One of the challenges that our businesses in New Hampshire 
have is that most of the businesses we have are small 
businesses. They have trouble getting access to government 
programs or to government departments like DOE, for example. 
I've heard from GT Solar, a company in New Hampshire that makes 
solar panels that they've had difficulty trying to get a 
meeting with the Department of Energy.
    I appreciate that the Department is not all staffed up. So 
hopefully that will change as you all get on board. But I would 
ask if you have thoughts about how we can make programs and 
expertise at the Department, the ability to collaborate at the 
Department, more available to small businesses. I would throw 
that open to either one of you who would like to address it, 
perhaps, Mr. Brinkman.
    Mr. Brinkman. I would just like to make a couple comments, 
especially on photovoltaics. It turns out there are, in the 
United States today, there are 217 startups in photovoltaics. 
It's an enormous number of startups. So somebody is putting 
some money into this arena.
    The other comment I'd like to make about photovoltaics. I 
have a good friend who works at reducing the cost through the 
production techniques, reduction of production costs. Their 
company now is supplying 15 different manufacturing plants 
based on the technology they've developed in the United States. 
Not a single one is in the United States, not a single one.
    It's a major problem in my opinion that we somehow or other 
seem to have all this activity going on. I've talked to various 
people within the photovoltaic world. They're all doing the 
same thing. They're all going outside the country to 
manufacture it.
    We have to figure out what is wrong. I don't think it's 
just labor; I think it's a more complicated story than that. We 
need to get that situation straightened out so the small 
businesses have a chance to do things in the United States.
    Senator Shaheen. So do you have any specific thoughts about 
what DOE can do to help those companies?
    Mr. Brinkman. One of the things I think we have to 
understand is the incentives. This is certainly not my 
bailiwick, but we definitely need to try to understand the 
incentives that are driving all of these plants out of this 
country.
    I really don't believe it's labor. I'm going to try to 
figure out myself. But as I stated earlier I'm not responsible 
for this kind of thing.
    Senator Shaheen. Ms. Zoi.
    Ms. Zoi. One of the things I hope that I can bring to the 
job if I'm confirmed is I have experience with small business, 
in the business sector. I know what it's like to be on the 
other side never getting a call back, having to fill out 
endless forms that are hundreds of pages. That's a real cost of 
doing business.
    So, one of the things I'm excited about in this job is the 
management challenge and creating a culture that's accountable. 
That moves at a pace that's responsive to the private sector 
needs. I mean we've got the proverbial valley of death 
approaching us on this.
    You know, we've got some venture capital money. Then we've 
lost the capital that was available in markets last year. The 
government has got to fill in and build those bridges and make 
sure that the companies that are needing a boost, whether it's 
a set of regulations, whether it's a bit of advice or whether 
it's a loan or grant. That that happens in a time that makes 
commercial sense for the companies.
    My experience that I'm bringing hopefully will inform that. 
I'll help create a culture in the Forrestal Building that is, 
perhaps, a bit more responsive than it's been in the past.
    Senator Shaheen. I think that would be a welcome change for 
many small business in New Hampshire and across the country. 
Thank you.
    Senator Murkowski.
    Senator Murkowski. I appreciate the discussion about the 
impact on small business and what we do to push good 
opportunities overseas and how we need to be working to stem 
that. One of the concerns that I have raised as we talk about 
how we move toward this new generation of green renewable 
energy we're going to be in a situation where our reliance on 
foreign sources for our minerals, for the raw materials that we 
need, is absolutely acute. Ms. Zoi, you indicate you're a 
geologist.
    I look at some of what we're facing. The quartz crystal 
that's needed for the photovoltaics, 100 percent of that comes 
in from foreign sources. The platinum for fuel cell catalyst, 
91 percent imported. Indium for LED lighting technologies, 100 
percent imported. The rare herbs for advanced batteries, 100 
percent imported.
    So I think as we talk about how we create all these 
wonderful jobs and the opportunities and build out the green 
technologies, we've got to be very cognizant of this issue. Ms. 
Zoi, I would hope that you too share this concern and are 
thinking about how we can, within the Department of Energy, 
more effectively coordinate with the Department of the 
Interior, the USGS, to really figure this out.
    Because when we talk about energy insecurity which we have 
right now, we're close to 70 percent reliant on foreign sources 
for oil; we can just see ourselves going down the same path 
when it comes to the raw materials that we will need for 
renewable energy sources. More of a statement than a question 
to you all, but I hope that you're all kind of thinking about 
that.
    Ms. Castle, I wanted to ask you a question on the science 
side of your nominated position here, the Assistant Secretary 
for Water and Science. In Alaska we are currently in a 
situation where there's dozens of Alaska species that are being 
considered for review under the Endangered Species Act. We've 
got walrus. We've got a whole different variety of seals. We've 
got others. We have established, several years back, a North 
Slope Science Initiative.
    This is a collaborative effort of all of the agencies 
designed to bring together all of the science that is out 
there. So that when we're making important policy decisions 
that we have the science in place already. The North Slope 
Science Initiative has been embraced by everybody. Everyone 
believes it's a great idea.
    Yet when it comes time to actually fund the NSSI, it's been 
very limited. It was almost non-existent in the 2009 Omnibus 
budge. So I guess I would ask if you're familiar with it. If 
you're not I would ask you to familiarize yourself with it.
    If you are, I would hope that we could seek your support. 
If we don't have the science, we're not doing right by our 
initiatives. We may disagree with you at the end of the day on 
the direction it's taken. But if we can all acknowledge that we 
had the science upon which we could base our decisions, we're 
going to be having a much better conversation.
    Ms. Castle. Senator Murkowski, I have been made aware of 
the North Slope Science Initiative. First let me say that I 
totally agree that coordination among the various science 
agencies is critical, not only in the area of endangered 
species, but in the other areas that we've been talking about, 
climate change, adaptive management solutions, energy use. So I 
think that the President's statement on ensuring that policy 
decisions are based on sound science is also an indication of 
the support of the administration for the kind of coordination 
that you're describing.
    If I'm confirmed I'd like to work with the committee to try 
to find sources of funding for those kinds of coordinated 
science initiatives.
    Senator Murkowski. We'd welcome that opportunity. Quick 
question for you, Mr. Brinkman. Are the national laboratories 
collaborating with one another to your satisfaction? Or is 
there a level of competition that continues?
    If so, how can there be greater collaboration?
    Mr. Brinkman. There's one of the things we would like and 
another of the things that we would like to address to some 
extent. However, I think that they are cooperating on many 
things together. But there is some competition. I want there to 
be some competition.
    You wouldn't want them not to be competing with each other 
in a fairly aggressive way. But one of the jobs I regard myself 
as having is to bring these people together on specific 
programmatic activities. To see that our program makes sense 
and that the people are doing the right things.
    If you look historically at major facilities such as the 
SNS at Oak Ridge National Laboratory, it was built by having 
each different laboratory build a component of the facility. It 
worked quite well in the end. It had a rocky start, but it 
ended up being a really terrific facility at this stage.
    Senator Murkowski. Thank you, Madame Chairman. My time is 
expired.
    Senator Shaheen. Senator Sessions.
    Senator Sessions. Thank you. Dr. Brinkman, you'll have the 
labs under your supervision. We've had some problems with 
efficiency and productivity at the labs.
    I remember a previous Secretary of Energy, Spence Abraham, 
eventually completed one of those labs, and I think the 
government benefited from it. I do think there is a tendency 
for institutions like that to sort of settle into their own 
pace and to maybe, be comfortable and not be as energized in 
helping us meet the challenges of the country.
    I'll just ask you generally. Are you prepared to examine 
the laboratories, the amount of money they're getting and the 
productivity that they're giving the American taxpayer and try 
to make sure you get the maximum benefit from it?
    Mr. Brinkman. I must admit, I don't think I'd take this job 
if I wasn't going to do that. But in any case it seems to me 
that what's happened over the years is that this process of 
renewal of contracts that labs have gone through. I think it's 
been very beneficial to the laboratories to make them think 
through what they're doing and their management structure.
    I certainly believe we should continue that. I also believe 
that it's mired in its own bureaucracy and the contracting 
needs to be done in a much more streamlined fashion.
    Senator Sessions. What is? That the procedure has its own 
bureaucratic problems?
    Mr. Brinkman. Yes. Its procedures, in my opinion have their 
own problems. Coming from Princeton, the Princeton Plasma 
Physics Lab just went through that whole process. It took a 
very long time.
    In fact it was signed off on the last days Secretary Bodman 
was on the job tells you there was something wrong.
    Senator Sessions. I would just say to you that these are 
fabulous institutions. They have tremendous potential to 
benefit America, and are. Whether it's nuclear weapons or 
research and development and energy and I think all those 
institutions benefit from strong leadership from the top.
    I just would encourage you to assert yourself.
    Mr. Brinkman. I'll try my best.
    Senator Sessions. Ms. Zoi, you've got two areas that I'm 
interested in. Energy efficiency. I really think that that has 
continued potential for America.
    I think in particular a lot of poor people still are in 
housing and have energy heating and cooling systems that are 
inefficient and cost them very valuable dollars that they have. 
So I think that's a very good area for us to work on. I look 
forward to working with you.
    I support anything that works to reduce CO<INF>2</INF>, to 
reduce costs for the taxpayer, to reduce imports and energy 
from abroad, make us more energy independent. I think all those 
things are important. I'd like--and I think you do from our 
conversation that we had.
    With regard to the biofuels, we have a situation in which 
the loan moneys that were supposed to go out to help some of 
these entities get started. I don't think has moved as fast as 
it should have. I do believe that there are quite a few 
companies out there that have technologies that are potentially 
good, but can't prove it today. So I guess I'm not sure part of 
the reason that the Department of Energy is slow is they may 
have felt they were nervous about supporting a new technology.
    But don't you think that's what the government is for? It's 
to take some chances in making these loans so we can accelerate 
some of these new technologies, maybe by several years----
    Ms. Zoi. Yes.
    Senator Sessions [continuing]. And prove whether or not 
they are going to be productive.
    Ms. Zoi. Absolutely.
    Senator Sessions. What were your thoughts about the loan 
program?
    Ms. Zoi. Absolutely. The Secretary has made a commitment to 
streamline the processes so that the money that's been 
appropriated and authorized by Congress moves out more quickly. 
The previous money just got stuck and it never sort of came out 
the other end.
    I agree with you. There are a number of places where the 
Federal Government has a unique role to play. That early stage 
has higher risk stuff that the business community might not 
look at. Some of the biomass examples that you're citing that 
you and I talked about may indeed be in that category.
    I look forward to streamlining the processes to ensure that 
the Federal Government folks have a set of guidelines so that 
they know that this is a risk profile that's acceptable for the 
taxpayers. That's why we're here.
    Senator Sessions. According to the environmental working 
groups, 76 percent of Federal renewable energy subsidies went 
to corn ethanol in 2007. That represents a total of about $3 
billion while wind, solar and other renewable sources received 
roughly 750 million. Do you think that reflects an appropriate 
balance? Are there other ideas that you have that we make could 
be more effective in bringing on renewable sources?
    Ms. Zoi. I'm not familiar with the particulars of how the 
funding has taken place in the past. But what I would pledge is 
that if confirmed I would love to work with you on the 
appropriate setting of the priorities and ensuring that the 
highest value, highest leverage, largest opportunities for the 
taxpayer investment get made.
    Senator Sessions. That's a good idea. That's the right 
approach.
    We're not putting enough research and development on this 
renewable source or that one. Congress passed a law that may 
have looked good 3 years ago, but not good today. I think you 
should come forward and give us your best judgment.
    We may not agree. But I look forward to you sharing that. 
Thank you.
    Senator Shaheen. Thank you.
    Senator Bunning.
    Senator Bunning. Thank you, Madame Chairman. Ms. Zoi, you 
already have answered the question I was about to ask about the 
administration's proposal for cap and trade. You already 
answered it.
    If the goal of cap and trade is to reduce emissions, do you 
support making nuclear a component of DOE's Clean Energy bill?
    Ms. Zoi. I support the overall thrust of moving the economy 
in a direction where there's a framework in which investment 
decisions can get made by the private sector, and they know 
what the rules of the road are--that we need to, over time, be 
moving toward a less carbon intensive energy.
    Senator Bunning. Do you think nuclear is part of that?
    Ms. Zoi. Yes. However, Nuclear energy is not a part of 
EERE's portfolio.
    Senator Bunning. But it's in the overall portfolio of DOE?
    Ms. Zoi. Yes. The Secretary of Energy has stated on the 
record that one of his priorities is to restart the nuclear 
industry in this country.
    Senator Bunning. In 2005 and 2007 we passed laws. We put a 
bunch of dollars, up front, to restart the nuclear power energy 
business. We had, I think, presently we have about 17 
applications and we had more than that.
    None of the money has moved. None. Is there somehow we can 
get some kind of an assurance that that money and/or additional 
moneys will be used to jump start the nuclear power energy 
because that is one great way to get our climate control under 
control.
    Ms. Zoi. The Secretary of Energy has made a commitment, a 
new found commitment, perhaps different than the previous 
commitment of the previous administration, to jump start, 
restart, and invigorate the next generation of nuclear energy.
    Senator Bunning. One thing on cap and trade and I want to 
follow up on this. Every time I get into a discussion in the 
Finance Committee or this Committee on Energy on cap and trade 
I get the argument from a lot of people that the United States 
must lead. It's up to us to lead.
    Now I'm ready to lead. But I also would like some 
followers. Unless we can get China and India and Russia on the 
dotted line, as far as a global reduction in emissions we can 
get to zero emissions in the United States. Twenty years from 
now we'll have more emissions in the atmosphere if China and 
India and Russia don't sign on.
    Is that pretty accurate?
    Ms. Zoi. Climate change is a global problem. It's going to 
require a global solution. What that means is all of the high 
emitting nations are going to have to be party to it.
    Other folks in the administration, in the State Department 
and elsewhere, are working very hard on this issue.
    Senator Bunning. I just saw where the Secretary of Treasury 
was over talking to China about this.
    Ms. Zoi. That's right.
    Senator Bunning. So did our prior Secretary of the Treasury 
go to China. Because when we went there as a Senate, we 
couldn't even meet with the people that were in charge of 
climate change in China. They wouldn't meet with six Senators. 
They thought that only the Secretary of the Treasury could 
really get it done. Not understanding, obviously how 
democracies work since it's a little different.
    Ms. Zoi. It's a little different.
    Senator Bunning. It's a little top/down over there. Thank 
you.
    Mr. Brinkman, as you know this committee is currently in 
the process of writing an energy bill. One component of that 
bill that we have already considered is research and 
development funding for the Office of Science. Can you discuss 
the long term funding needs of the Office? Do you believe that 
this committee's authorization level will meet your and the 
future needs of that office?
    Mr. Brinkman. Yes, thank you. The Office of Science had a 
very constant budget for the last several years. But now you, 
the Secretary and President Obama are committed to doubling its 
budget by 2016.
    This is at about a 7&rcent rate per year. It seems to me 
that that's a rate at which we could easily handle. I'm just 
starting to learn about the budget this week.
    There are many, many different research projects that I 
think are worthy of support. I think that it is true that what 
has happened in the last 8 years is our position in the world 
of science has waned a bit. I personally have come here because 
I think we have an opportunity to drive it back to a prominent 
position in where we were in the past.
    Senator Bunning. Will you answer my question about did we 
provide enough? Is 7 percent annually, if that, increase 
enough?
    Mr. Brinkman. If that increase becomes a reality I'll be 
very happy.
    Senator Bunning. Alright. Thank you very much.
    Senator Shaheen. Thank you.
    Senator McCain.
    Senator McCain. Thank you very much. Ms. Zoi, do you 
believe that nuclear power is a renewable energy source?
    Ms. Zoi. I believe that nuclear power is a non carbon 
emitting energy source that is very important to our economy. 
It's 20 percent of our electricity, as you know.
    Senator McCain. I will repeat the question. Do you believe 
that nuclear power is a renewable energy source? We're 
accustomed to getting answers that respond to the question.
    Ms. Zoi. As a geologist, I would say there's a finite 
supply of uranium. So technically nuclear power is not a 
renewable energy source. But it does have other environmental 
advantages in that it doesn't emit CO<INF>2</INF>.
    Senator McCain. Mr. Brinkman, same question.
    Mr. Brinkman. If you define a renewable energy source as 
one in which it is an essentially infinite amount of resource 
it is not a renewable source. But it is a very good source for 
not emitting carbon dioxide.
    Senator McCain. Do you believe that nuclear power that we 
should have a storage facility for spent nuclear fuel, Mr. 
Brinkman?
    Mr. Brinkman. I think what we have to do is try to re-
examine this issue after President Obama has decided that we 
will not do Yucca Mountain. He, as you know, has got a blue 
ribbon committee that he's putting together to work this issue. 
I think there are some alternatives we need to explore.
    I personally want to see us do more research on 
reprocessing. I think reprocessing today is a very complex 
issue.
    Senator McCain. Reprocessing is a very complex issue, in 
your view?
    Mr. Brinkman. The process of reprocessing is very complex.
    Senator McCain. It is?
    Mr. Brinkman. Yes.
    Senator McCain. Why is it that the Japanese and the British 
and the French are able to do it fairly easily?
    Mr. Brinkman. That's because we have not done anything in 
the last 20 years on reprocessing.
    Senator McCain. Pardon me?
    Mr. Brinkman. We haven't done anything.
    Senator McCain. No, but other countries do.
    Mr. Brinkman. We can do it. But the way they've done it is 
very expensive. I would hope we can find a better way.
    Senator McCain. How is it complex if three other countries 
are doing it routinely, Mr. Brinkman?
    Mr. Brinkman. Frankly I don't believe they're doing it 
routinely.
    Senator McCain. You don't believe they're doing it 
routinely?
    Mr. Brinkman. Routinely is a funny set of words. I think 
they're doing it. But it's, in each case, it's been a very 
expensive process.
    Senator McCain. They seem to find it a great way of 
disposing of spent nuclear fuel. I have been to their facility 
in Japan, Mr. Brinkman and it's not rocket science.
    Mr. Brinkman. I'm not against reprocessing. You have to 
understand that. I want to improve the process.
    Senator McCain. What's wrong with the existing process?
    Mr. Brinkman. We can use the existing process. But one of 
the problems it has is it has a non proliferation issue that 
needs to be worked for example. It tends to create--one of its 
products is a highly radioactive plutonium. That's a thing that 
you can make a bomb out of.
    We would like not to have that as one of the process steps. 
We need to think that through.
    Senator McCain. We'll go through this debate some more. The 
fact is that's a far better problem to face than having spent 
nuclear fuel in pools at 100 and some nuclear power plants 
around the country. This administration says it wants nuclear, 
but yet they're going to shut Yucca Mountain where we've been 
working on for 14 years.
    They're against reprocessing for the--reasons that I don't 
accept when three major nations in the world are able to do and 
not pose a threat to this world security. So, I don't have any 
more questions, Madame Chairman.
    Senator Shaheen. Senator Bennett.
    Senator Bennett. Thank you very much, Madame Chairman. I 
want to pick up on what Senator McCain has been talking about 
because I too have been in one of the reprocessing plants. The 
one I was in was in France. The French have been dealing with 
nuclear power now since the days of Charles de Gaulle.
    Charles de Gaulle looked around France and realized there 
wasn't any coal to speak of. There wasn't any natural gas to 
speak of.
    Charles de Gaulle is not my favorite politician. But he 
made the decision. France is going to be nuclear. In that 
process France is going to be independent. Roughly 80 percent 
of France is power. They've solved the proliferation problem, 
obviously, fairly well.
    I join with Senator McCain in urging you to say let's make 
the policy decision that we're going to do reprocessing. Let's 
get on with building new nuclear plants as rapidly as we 
possibly can. They can't be built overnight. In the period of 
time while they're being built you can deal with the 
reprocessing issue and have it ready to go.
    Now react to that. What is wrong with that?
    Mr. Brinkman. There's nothing wrong with that.
    Senator Bennett. I walked in on something. I apologize.
    Mr. Brinkman. What I was trying to say is one of the things 
I would like to do in the position as the Director of the 
Office of Science is see if we can do anything to improve the 
process. It seems to me that's a very legitimate goal in trying 
to figure out a better reprocessing technology.
    Senator Bennett. Ok. I can agree with that.
    Mr. Brinkman. It's a perfectly legitimate thing to do.
    Senator Bennett. I think I share with Senator McCain the 
concern that for all of the rhetoric we have not laid down the 
marker that this Nation is going to go forward with nuclear 
power, with reprocessing in a very vigorous fashion. I want to 
be very clear that that is where I feel we need to be going. 
Because if you're going to talk about power that does not have 
greenhouse gas emissions, that is reliable. You come instantly 
to nuclear.
    Wind is fine as long as the wind blows. But it doesn't 
always blow. There are times when its interruption is 
dramatically damaging to the grid to which it is connected.
    Solar is fine. But the sun doesn't always shine. There's a 
lot of land that gets covered with these solar panels.
    So everybody says, yeah, nuclear is the answer. But I don't 
see the kind of commitment to it beyond the rhetoric. That's 
just the point I wanted to make.
    Mr. Brinkman. The other thing I wanted to add is that one 
of the programs, as you may know, Secretary Chu has proposed to 
create a set of hubs. He calls them hubs in our new thrust. One 
of the thrusts is in lithium batteries for cars--but rather 
batteries and storage mechanisms for renewables.
    I mean, one of the big issues, as you just pointed out is 
the fact that renewables are intermittent and can you do 
anything about that? I think that's a very good research area 
in which for us to try to see if we can find a breakthrough 
which would change that dynamic.
    Senator Bennett. Ms. Zoi, maybe we should be focusing on 
you given your portfolio of energy efficiency and renewable 
energy. If we did have massive amounts of electricity available 
and we do at night. But if we could add to that the nuclear 
capability that we're talking about in these kinds of plants, 
we could have, what, 17 million? No, more than that, 100 
million batteries sitting in our garages and plug in hybrids.
    If we moved in that direction you wouldn't need any 
additional battery technology. To get there you could just have 
the incentive to move in that direction. So are you as 
committed to nuclear as the rhetoric has been around here?
    Ms. Zoi. Nuclear is not in the portfolio of the office for 
which I've been nominated, Energy Efficiency and Renewable 
Energy.
    Senator Bennett. By definition nuclear is not under your--
--
    Ms. Zoi. No. There's another office in the Department that 
deals with nuclear power.
    Senator Bennett. Thank you very much, Madame Chairman.
    Senator Shaheen. Thank you, Senator Bennett. I wonder if 
you all could clarify something for me. I'm not sure that you 
know the answer to this. But given the questions about nuclear 
power and reprocessing am I to understand that the Energy 
Department under this new administration has changed the policy 
relative to nuclear energy?
    Mr. Brinkman. I don't know what you mean by change.
    Senator Shaheen. Relative to reprocessing, for example.
    Mr. Brinkman. I don't think it's changed that process as 
far as I know.
    Senator Shaheen. I appreciate, as Senator McCain said there 
has been a change relative to storage of nuclear waste.
    Mr. Brinkman. That's for sure.
    [Laughter.]
    Senator Shaheen. Thank you. Senator Murkowski.
    Senator Murkowski. Thank you, Madame Chair. It seems the 
longer we sit, the more interest we get in our nominees. I 
appreciate your endurance. I've got one last question.
    I think you've heard the comments from some of my 
colleagues here about nuclear energy. Nuclear is absolutely 
carbon free in terms of its emissions, so why we aren't seeing 
more support from the administration on it? Also when we're 
talking about a renewable electricity standard and looking to 
the definition, another area that has just befuddled me is 
hydro.
    I was born in a rain forest. I was born in the Tongass 
National Forest in the Ketchikan General Hospital. It rains 
over 300 days a year there. There's no intermittent in what 
comes out of the skies there in Ketchikan.
    [Laughter.]
    Senator Murkowski. 24 percent of our State's total power 
comes from our hydro plants. In none of them, so far as I know, 
in none of them are we blocking a free flowing river. We don't 
harm the fisheries.
    I look at that and it's as good as it gets when it comes to 
hydro. Yet for purposes of a renewable electricity standard, 
you know, we're putting all kinds of barriers in front of hydro 
itself. Now hydro is clearly in your portfolio under 
renewables.
    Can you tell me, as you're working to reduce our emissions 
to move us toward renewable fuels, your view of hydro power's 
role?
    Ms. Zoi. Hydro is a huge and important resource, which we 
have obviously relied on for many decades. I think the reason 
that hydro has not been supported by some of the renewable 
energy advocates in Washington is because there's a bit of a 
legacy of non-environmentally sustainable hydro.
    To the extent that there are opportunities for developing 
hydro in a way that doesn't damage fisheries, forests, 
etcetera, it makes total sense. There are opportunities at 
existing dams where the catchment is well managed both upstream 
and downstream to upgrade the turbine so that we get more out 
of them. That's makes total sense.
    I'm told that there are variety of opportunities like that. 
I think probably hydro doesn't get a free pass unless all of 
the other environmental impacts can be ameliorated.
    Senator Murkowski. Let me ask you this though. You're 
saying, ok, well if there's no environmental damage or 
degradation. So is that same standard to be applied then with 
wind and with solar. You want to put big solar panels out in a 
desert, but it interferes with the jack rabbit or whatever.
    The wind turbines do great damage to some of the migratory 
birds that are coming through. So I mean, how do you 
differentiate then between what we've said with hydro and any 
other form of renewable energy that will have environmental 
impact?
    Ms. Zoi. I absolutely agree that there are standards that 
need to be set so that what we're investing in is economically 
sensible, environmentally sensible and environmentally 
sustainable. I think that if we sharpen our pencils we're going 
to be able to do that with a variety of resources.
    Senator Murkowski. So will you work with us on hydro?
    Ms. Zoi. Absolutely.
    Senator Murkowski. Thank you, Madame Chair.
    Senator Shaheen. Senator Sessions.
    Senator Sessions. Thank you. Ms. Zoi, on renewables. The 
definition--I guess we're wondering why it's such an artificial 
definition. Fundamentally most people, I believe, think that 
renewable is good because it emits no CO<INF>2</INF>. It's a 
renewable resource. It helps the environment and the economy.
    So in terms of what's really important for our environment 
I think that the nuclear meets that test and should be given--
whether you call it a renewable or not--should be given the 
same incentives that we might give to other sources. So Dr. 
Brinkman, there has been some changes.
    The President canceled immediately the storage site at 
Yucca. He announced a 2-year, blue ribbon study on recycling. 
Those are major changes, both of which are retrograde direction 
for most of us. That's what we think.
    So we're worried about this. I notice every time a witness 
comes up we're asking about this because this is troubling to 
us. The cost of electricity from nuclear power is competitive 
with coal.
    It is base load, 24 hours a day. It does allow the 
possibility that you could use plug in cars. Set your charger 
for midnight to 5 am or some such.
    When that base load is available and just do great and not 
use a drop of oil. So that's what we're worried about. I think 
you're going to continue to hear from the Congress and 
Democrats as well as Republicans about our view on that.
    With regard to renewables, to me, the renewable energy 
standards, the renewable portfolio, Ms. Zoi, is driving the use 
of biofuels to electricity. As you and I have discussed and I 
think you're aware, there's great possibilities of converting 
biofuels to liquid that could be used in automobiles. I would 
assume you have about the same environmental benefit but 
economically it's to me, much more important that we replace 
that liquid fuel that goes in our vehicles because 60 percent 
of it is imported.
    Our wealth is going out every year to countries who do 
nothing but sit there and watch it pump out of their soil. Some 
of these countries are not even friendly to us. So do you see a 
problem and shouldn't the incentive be at least as well or the 
mandate which is a renewable portfolio is a mandate. Shouldn't 
we balance that so that we are at least incentivizing biofuels, 
particularly wood or corn, to be utilized for liquid fuels 
rather than just electricity?
    Ms. Zoi. I share your excitement and enthusiasm for the 
possibilities of biofuels replacing our imported oil. I 
recently visited the Joint Bio Energy Institute in Northern 
California; and the researchers were on fire.
    They're about to turn the corner on a whole bunch of ways 
to take what had been almost viewed as trash plants and turn 
them into fuel. The fuel can be put into an engine that burns 
very, very efficiently. So there's a huge amount of promise 
there.
    With regard to the particular policy instruments, if 
confirmed I look forward to working with you, and the other 
members of the committee, to identify the policy instruments 
that make the most sense in getting that done.
    Senator Sessions. I want you to think about this. If you 
mandate renewable energy for electricity in certain areas of 
the country like my region, about the only thing that can be 
used is wood, maybe switch grass, woody byproducts. I think 
that product would be better utilized for the Nation's economy 
as well as the environment for liquid fuels where possible. We 
could be mandating in a way that's contrary to our highest and 
best use.
    Would you look at that if you go forward?
    Ms. Zoi. Absolutely.
    Senator Sessions. Thank you. Thank you, Madame Chairman.
    Senator Shaheen. Thank you, Senator.
    Senator Bennett.
    Senator Bennett. Thank you very much. Let me just make a 
quick comment about environmental degradation whether it comes 
from hydro or whatever. The environment itself is not static.
    Mother Nature is constantly changing. So an attempt to say 
that today's environmental circumstance must be preserved at 
all costs is to fight against nature. If we decide, for 
example, as some people have said, well, we must get rid of the 
Glen Canyon dam so that the Colorado River can revert to its 
normal pattern.
    We've made a decision what the normal pattern is and the 
ecosystem that now exists below the Glen Canyon dam will be 
destroyed completely. I don't know where the moral decision is 
of the plants and the animals and whatever that have grown up 
as a result of the existence of the Glen Canyon dam are somehow 
deserve our concern less than the kind of thing that would come 
back if we destroyed it. Then Mother Nature would bring about 
an earthquake or some other change and it would all change 
again.
    I had that brought home dramatically to me when I was a 
businessman and we were looking at an investment circumstance. 
They said you can't possibly do this because if you do, you'll 
interfere with the fish in this stream. A little while later 
they said, well, we're going ahead.
    I said, what happened to the fish in the stream. They said, 
oh, we had a drought and it dried up and the stream went away, 
so all the fish died anyway. Since nature did it and we didn't 
why now we can.
    This is the kind of thing that frustrates me a little with 
those who say we must preserve the environment at all costs. I 
say, preserve which environment because it's constantly 
changing. Alright, I apologize for that harangue. But that's a 
comment that I wanted to make in this conversation.
    Ms. Zoi, let's talk about algae. I have looked at the 
plants. I have looked at the statistics. Of all the things that 
can be grown and turned into oil, I've never seen anything that 
has the potential that algae has.
    I have voted against corn ethanol at every opportunity in 
my Senate career because I don't think it makes any sense. I 
think the more we learn about it, the more we discover that it 
doesn't make much sense. This is something that can produce 
scale.
    Corn ethanol cannot produce any energy at a significant 
scale without tremendous, contradicting my earlier comment, 
tremendous environmental degradation, the amount of land that 
is used, the amount of water that is used. You can get algae 
and you can grow it in brackish water. We could get energy out 
of the Great Salt Lake which is incredible because it's not 
good for anything else.
    Now that's not true. You can get salt from Great Salt Lake 
and some trace minerals. It has wonderful sunsets.
    [Laughter.]
    Senator Bennett. Are you familiar with all of the work 
that's being done with respect to algae?
    Ms. Zoi. About 19 years ago I visited the National 
Renewable Energy Lab. At that time they were doing some very 
early stage research on trying to harvest algae. I can still 
remember looking at the big receptacles that they had there.
    Senator Bennett. Yes.
    Ms. Zoi. If confirmed I look forward to getting up to speed 
on where the state of the science is now because it sounds very 
exciting.
    Senator Bennett. It's way beyond that, way beyond that. I 
can give you the names of companies that are ready to start 
producing it on a very significant basis.
    Ms. Zoi. Sounds great.
    Senator Bennett. Finally, the question is well, gee, you 
haven't changed. I would point out that in the supplemental, in 
my role as the ranking member on the Energy and Water 
Subcommittee of Appropriations, with the full cooperation of 
Senator Dorgan, who is the chairman of that. We put in 
$100,000,000 for loan guarantees. It got taken out by the 
House.
    I got ads run against me in my home State because they said 
I was the tool of the nuclear industry because I was willing to 
put in these loan guarantees. Those loan guarantees would have 
made a significant contribution to seeing that we move forward. 
So I'm not blaming the administration. I'm blaming the House. 
That's easy to do here.
    But I would ask you all to look at that from administration 
policy because the loan guarantees are essential for all kinds 
of carbon emission energy and the fact that nuclear is one of 
them that has used those loan guarantees, has been the excuse 
to cut them back. Ms. Zoi, you will find the loan guarantees 
valuable for everything that you think and talk about other 
than nuclear.
    It's been the decision of Congress that they are to be used 
for both, the more traditional renewables and nuclear. That's 
one place where I think a little bit of leaning on the House 
would be helpful. Thank you, Madame Chairman.
    Senator Shaheen. Thank you, Senator Bennett. I can't 
imagine that anybody suggested you were the tool of any 
industry.
    Senator Bennett. It's the election cycle.
    Senator Shaheen. Seeing there are no more questions members 
will have until 5 p.m. tomorrow to submit any additional 
questions for the record.
    At this time the committee stands adjourned.
    [Whereupon, at 3:45 p.m. the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

  Responses of William F. Brinkman to Questions From Senator Murkowski

                          ROLE OF THE DIRECTOR

    Question 1. In the last month or so, we have had hearings on the 
nomination of Steven Koonin for Undersecretary of Science. You have 
nominated been as the Director of the Office of Science. Would you 
please explain how you see your role, as compared to that of Mr. 
Koonin's, at the Department?
    Answer. The Director of the DOE Office of Science (SC) has primary 
responsibility for the scientific and technical strategic direction and 
line management of the Office of Science. This includes: determining 
the strategic directions for the discovery science and the mission-
relevant science supported by SC; identifying the needs for new 
scientific user facilities and implementing their design and 
construction; and implementing the SC role in the Administration's 
research and energy agendas. The Director also has direct oversight of 
the 10 SC national laboratories and would work closely with the Under 
Secretary for Science in coordinating SC basic research with the 
applied technology programs.
    Under Secretary for Science Steven Koonin is the principal advisor 
to the Secretary of Energy on scientific matters relating to all 
programmatic elements of the Department of Energy and the National 
Nuclear Security Administration, not solely the Office of Science. He 
serves as agent for informing and carrying out the Secretary's 
initiatives in advancing President Obama's energy agenda; he is 
responsible for effecting integration among basic and applied DOE 
programs and the NNSA, for assessing effectiveness, and for long-term 
strategic planning of the Department's R&D portfolio. If confirmed, I 
look forward to working with Dr. Koonin to improve the efficiency and 
effectiveness of the Department's science and technology enterprise.

                                  ITER

    Question 2. Over the last several years, U.S. financial support for 
international science experiments, like the International Thermonuclear 
Experimental Reactor (ITER) has been limited, placing our involvement 
in jeopardy. What do you envision as the United States' role in 
international programs like ITER, both in the immediate future and 
long-term interaction?
    Answer. As Secretary Chu has said, international research 
collaboration is extremely important to address our most pressing 
energy challenges. The Office of Science has a long history of working 
with international partners to advance science and technology. The 
Large Hadron Collider, which will open new frontiers in our 
understanding of the fundamental nature of the universe, is the most 
recent example. ITER is a very complex project that must be managed 
well in order to succeed; the US role, through the Office of Science, 
will focus on rigorous project management.

                       R&D FUNDING AUTHORIZATION

    Question 3. The Senate Energy and National Resources Committee is 
considering legislation that would double the Office of Science's 
Research and Development funding authorization level over the next four 
years. Is that the appropriate level and timeframe? How will the Office 
of Science support Energy Research and Development? Are there issues 
that the Committee is missing when considering Energy Research and 
Development?
    Answer. I believe that the Office of Science has the capacity to 
manage effectively a budget doubling profile that extends over the next 
four years, completing the doubling in FY 2014 rather than FY 2016, as 
currently authorized under the America COMPETES Act of 2007. A doubling 
of funding would allow the Office of Science to support a broad 
portfolio of grand challenge science and ``use-inspired'' basic 
research that touches almost every energy technology supported by the 
Department of Energy's technology offices. The research activities 
supported have the potential to achieve scientific breakthroughs that 
make fundamental new technologies feasible. These activities include, 
for example, the DOE Bioenergy Research Centers established in 2007 and 
the Energy Frontier Research Centers announced in May 2009.

                         LABS AND UNIVERSITIES

    Question 4. How do you see the national laboratories working with 
universities?
    Answer. The Office of Science encourages collaboration between 
national laboratories and universities through its program planning and 
management practices. These include activities such as scientific 
workshops for identifying compelling research opportunities and annual 
meetings of SC program grantees, which include broad participation from 
university and laboratory scientists. As you know, nine of the 10 
Office of Science national laboratories are managed and operated either 
by a university or a nonprofit research organization in collaboration 
with a university consortium. These partnerships are also enabled 
through the use of Funding Opportunity Announcements that encourage 
universities, national labs, and the private sector to apply. The three 
DOE Bioenergy Research Centers (BRCs) are one example of how the Office 
of Science is now encouraging the scientific community to self-assemble 
to submit outstanding proposals for research. Both of the laboratory-
led BRCs include multiple university partners. Likewise, the 
university-led BRC includes DOE laboratory partners. If confirmed as 
Director of the Office of Science, I will look at additional ways to 
encourage these types of productive partnerships.

                             NEW RENEWABLES

    Question 5a. I'm trying to see where you think we will get the 
greatest ``bang for our bucks'' from our research and development 
dollars.
    What do you see as the areas of renewable energy technology that 
are most likely to be economic and to achieve the greatest penetration 
into the market of renewable technologies in the future?
    Answer. While market penetration for renewables is largely under 
the purview of EERE, revolutionary breakthroughs in the performance and 
cost of renewable energy technologies are likely to be built on 
advances in fundamental science. Secretary Chu is vigorously pursuing 
new approaches to accelerate market penetration of renewable 
technologies through integrated research management, including the 
Energy Innovation Research Hubs (Hubs) proposed in the FY 2010 budget 
which will focus on specific topics and the 46 new Energy Frontier 
Research Centers (EFRCs) which are funded in FY 2009 which are largely 
inter-disciplinary collaborations within universities.
    Question 5b. Where should we be concentrating finite research 
dollars--in geothermal EGS, in ocean hydrokinetics, in hydrogen fuel 
cells, in cellulosic biomass, in algae biofuel development, or another 
area?
    Answer. I believe that there are no ``silver bullet'' energy 
technologies, and if confirmed, I would expect to support a broad 
spectrum of research and technology development efforts with a view 
toward marketable results.

                        COMPETITION BETWEEN LABS

    Question 6. Are the national laboratories collaborating with each 
other to your satisfaction, or do you believe there remains too much 
competition between the laboratories? How can greater collaboration be 
achieved?
    Answer. While I am not yet at the Department, I have had some 
experience over the years with the DOE laboratory system, particularly 
at Sandia and Princeton. If confirmed, I will certainly work to promote 
an environment not only among the laboratories, but also between the 
laboratories and the Department that works to the best interest of 
science and the American people.

   Responses of William F. Brinkman to Questions From Senator Corker

    Question 1. Dr. Brinkman, would you support a change in current DOE 
policy to authorize national laboratories to collaborate, on a non-
exclusive basis, with private industry on RFP's from the DOE and other 
federal agencies?
    Answer. The policy you allude to is derived from several statutory 
and regulatory requirements that preclude the DOE laboratories, as 
Federally Funded Research and Development Centers (FFRDCs), from 
competing with the private sector. If confirmed, I would consider 
reviewing the current DOE policy to determine if any changes are 
appropriate.
    Question 2. Over the last four years, the Department of Energy's 
Leadership Class computing facility at Oak Ridge has reclaimed world 
leadership in high-performance computing. All labs need computing 
capabilities, but given the tremendous success at Oak Ridge, do you 
support the strategy of continuing to fund a leadership class facility 
for the U.S.?
    Answer. Yes. Leadership Class Computing capability and capacity are 
essential for DOE missions in science, energy, and national security.

  Response of William F. Brinkman to Question From Senator Mark Udall

    Question 1. DOE has a solid track record of supporting energy 
sciences and collaborating with universities and industry. However, I 
have concerns about DOE's ability to collaborate with the small 
business community. Although the SBIR program within DOE Office of 
Science is very successful in identifying and funding new innovative 
technologies, DOE has not taken full advantage of the research 
capabilities of the small business community. In contrast, NASA and DOD 
have pursued a dual-use culture in which they actively work to bring 
technologies coming from small businesses into acquisition. As DOE 
Office of Science is investing millions of dollars into small 
businesses through the SBIR program, how does DOE ensure that the 
critical technologies developed for DOE receive the attention towards 
development and commercialization that DOE's larger institutional 
partners enjoy?
    Answer. When our SBIR grantees are successful, the sponsoring DOE 
research programs benefit from the early introduction of mission-
related technology into the marketplace. DOE's SBIR program has 
supported excellent research, resulting in spin-off companies and 
technologies, and is a model with respect to the commercialization 
assistance program. I'm told, however, that the commercial impact of 
the Department's SBIR/STTR program could be strengthened, and if 
confirmed, I promise you I will examine additional options.
                                 ______
                                 
      Responses of Anne Castle to Questions From Senator Murkowski

    Question 1. Please describe the initiatives that you expect to 
undertake as Assistant Secretary for Water and Science.
    Answer. The major priorities I expect to work on if confirmed as 
Assistant Secretary of the Interior for Water and Science involve:

          (a) advancing the role of sound science to inform the 
        determination of policy and decision making;
          (b) overseeing research into and analysis of the impacts of 
        climate change on water supplies;
          (c) developing adaptation strategies for dealing with the 
        impacts of climate change; and
          (d) promoting research into and development of better water 
        conservation strategies as one means of conserving both water 
        and energy.

    Question 2. Please describe how water resource constraints can 
become energy constraints.
    Answer. Most forms of energy require water at some stage during the 
process of extraction and/or transformation of raw materials into 
energy. This can he thought of as the water footprint of various types 
of energy. This relationship is probably the most direct for hydropower 
projects, where the water supplies available in a given river system 
acutely impact the amount of hydropower that can be generated. But 
water is also necessary for most other forms of energy generation. 
Extraction and processing of fossil fuels is also water-intensive and 
dependent on adequate water supplies. The operation of many types of 
power plants depends upon the availability of water for cooling. The 
issue of the relationship between energy and water use is important to 
me and I would be pleased to explore this issue further with the 
Committee if confirmed.
    Question 3. Please describe the impact of energy policies and 
regulations on water demands and its availability.
    Answer. There is a clear nexus between water use and the energy 
needed to make that water available. Pumping and delivering water and 
recycling brackish and wastewater are all energy-intensive. Current 
desalination technologies are energy-and capital-intensive. Conserving 
water conserves energy. I believe that water conservation is one of the 
most promising avenues for overall energy conservation, and if 
confirmed, I will work aggressively in this arena. As I stated in my 
answer to the previous question, I am also aware that most types of 
energy require significant quantities of water during production. 
Therefore, energy policies favoring one type of energy over another can 
have a significant impact on water demands. Water that is used to 
produce energy or during mining processes is not available to meet 
other needs. I strongly believe that the impact of energy policies on 
water demands needs to be part of the energy decision making process.
    Question 4. As we further address relationships between energy and 
water, what type of qualitative data do you believe is needed to better 
understand the linkages to biodiversity and ecological health?
    Answer. As you know, the Department of the Interior plays a lead 
role in several environmental restoration efforts across the country, 
including in the Sacramento-San Joaquin Bay-Delta in California, and on 
the Rio Grande in New Mexico. The efforts underway there and elsewhere 
to protect species rely on sound data on water quality, stream flows, 
impacts of water flows on species health and mortality, and general 
ecological health. If confirmed, I would look forward to any 
opportunities to expand the science available to managers in these 
areas, and hopefully to improve the body of knowledge that underpins 
sound resource management decisions.
    Question 5a. Based on your experiences working with many water 
projects in Colorado, and throughout the Western United States, could 
you please describe the extent of the aging water infrastructure 
problem?
    Answer. I am aware that Reclamation has provided very rough, 
preliminary-level estimates of at least $3 billion to rehabilitate, 
replace, and modify Reclamation assets under major rehabilitation and 
replacement programs in the future. I am further advised that more than 
half of Reclamation's facilities are now more than 50 years old. 
Although Reclamation has lengthened the service lives of many of these 
facilities through preventive maintenance, a number of these facilities 
are beginning to show the need for major repair, rehabilitation, and 
replacement due to age. The management of these repair costs is an 
ongoing process, and operating entities receive formal reports of 
facility reviews conducted with identified maintenance or repair 
recommendations.
    Question 5b. How can we best address the growing need to 
rehabilitate the Bureau's aging infrastructure?
    Answer. If confirmed, as part of-confronting the aging 
infrastructure problem. l would work with stakeholders in Reclamation 
projects and other experts to identify financing needs and develop 
joint strategies For keeping needed infrastructure operational. I am 
advised that Reclamation's Asset Management Plan (AMP) sets forth the 
agency's strategy for managing aging infrastructure. The AMP sets out 
four principal business objectives: I) Delivery reliability--Maximize 
the delivery of water and power to customers; 2) Cost Effectiveness--
Deliver products and services to customers at the least cost possible; 
3) Safety and Security--Maintain facilities and equipment to the 
highest standards of safety and security and; 4) Support to the Western 
Interconnection--Adhere to national standards addressing practices and 
policies to support the Western high-voltage electric power system.
    Question 6a. I recognize that the Stimulus has put more than $100 
million to further fund Title XVI water reuse and reclamation programs 
at BOR. However, the proposed FY 2010 budget proposes less than $10 
million to further advance the program. What do you see as the future 
for this program?
    Answer. I believe that water recycling has been and will continue 
to be an important part of Reclamation's suite of tools to help provide 
water in the West. The original Title XVI statute was designed to put 
local sponsors in the role of providing the primary funding for 
constructing, and all funding for operating, water recycling projects. 
I believe this orientation toward a significant but limited federal 
role was prudent and should continue. As for the FY 2010 budget request 
for Title XVI program, I am advised that this request, along with funds 
already appropriated under the Recovery Act, will make substantial 
progress on the dozens of Title XVI projects authorized to date.
    Question 6b. Will you support making this program a budget 
priority?
    Answer. If confirmed, I will work to advance water recycling 
projects consistent with the resources and authorities available to the 
Department. The FY 2010 budget request for Title XVI projects is $9 
million for seven authorized projects, program management, and research 
activities.
    Question 7a. Within Western water, there remain several unresolved 
issues surrounding Indian water right settlements. Please describe how 
you intend to address unresolved Indian water rights settlements.
    Answer. If confirmed as Assistant Secretary, I would support the 
efforts of the Department to settle rather than litigate Indian water 
rights claims wherever possible. Negotiated settlements are usually 
preferable to litigation for two major reasons. First, litigation does 
not necessarily get ``wet water'' to Indian tribes because litigation 
only defines the respective water rights and priorities of those 
involved and does not establish infrastructure often needed to put the 
quantified water rights to use. Second, settlements not only bring 
Indian and non-Indian communities together to confront joint water 
management challenges but also encourage consensus-driven solutions to 
other problems and build better relationships among tribes and their 
neighbors.
    I understand that the Secretary's Indian Water Rights Office has 
been established within the Department in order to coordinate the 
negotiation and subsequent implementation of Indian water rights 
settlements. This Office oversees the activities of 33 federal teams in 
the field negotiating or implementing settlements and assuring 
coordination among the Department's bureaus and agencies. If I any 
confirmed as Assistant Secretary, all the agencies under my purview 
will provide support for settlement activities.
    Question 7b. How do you intend to fund current and future 
negotiated settlements?
    Answer. This question is a difficult one and I hope to work with 
Congress as well as other federal agencies to identify solutions to the 
challenges posed by negotiated settlement costs. It is my understanding 
that most settlements have been funded through appropriations via the 
Bureau of Reclamation and the Bureau of Indian Affairs. I am also 
infornied that supporting all the settlements that may be proposed in 
the next decade could pose an enormous strain on these agencies' 
budgets. Attempts to avoid the need for continuing appropriations, such 
as by using the Reclamation Fund as a source of settlement funding, 
raise difficult PAYGO issues. Confronting these challenges will require 
the cooperation and effort of the Administration, Congress and 
settlement stakeholders because part of the answer is going to involve 
identifying appropriate federal costs of these settlements and 
negotiating provisions on project sizes, time frames, and federal and 
non-federal cost sharing so that the settlements can succeed. If 
confirmed as Assistant Secretary, I will attempt to work with all 
affected interests towards the goal of achieving settlements that can 
be adequately funded.
    Question 7c. Can you also assure me that you will work to ensure 
that the Department seeks enough funding to implement these 
settlements?
    Answer. No settlement can succeed if it is not supported and funded 
by the implementing agencies. I understand that developing a budget 
involves setting priorities. One of my priorities as Assistant 
Secretary will be finding a way to achieve settlements that can be 
implemented while still fulfilling the core missions of the agencies 
under my purview.
    Question 8. Please describe what you think should be the focus of 
the federal government's strategy to help our nation meet its future 
water supply challenges, and whether there is sufficient funding to 
meet these needs.
    Answer. I believe that the path forward for water supplies involves 
a multi-faceted approach that draws upon the best ideas in water 
conservation, recycling, conveyance, management and data enhancement, 
and in some cases, new storage capacity. Clearly the federal role in 
many of these areas will remain critical. but I also believe that local 
stakeholders, cities, States, tribes and other parties will be 
indispensible to effectively meet many of these water supply 
challenges. The funding demands on the federal government will depend 
in part on the priorities set by, and funding available to, these state 
and local partners.
    Question 9. Please describe the primary institutional, financial, 
and regulatory impediments to the development of new water supplies, 
and how can they be overcome.
    Answer. Typically, the impediments faced in the development of new 
water supplies involve identification of economic costs and benefits, 
limited legal authorities among participating agencies, identification 
of cost-share partners, environmental concerns, concerns about growth 
and disruption of historical agricultural activities and values, and 
State-based water rights. In my experience, a collaborative approach 
where all stakeholders can participate is essential to address and 
eventually overcome these impediments.
    Question 10. Please describe the role your office could play in 
furthering water technology research.
    Answer. I know that between the USGS and Reclamation, there already 
exists a robust set of water technology research efforts underway on 
topics that include desalination, climate change, invasive species 
mitigation, and linkages between water quality and energy exploration. 
I believe strongly in the need for cutting-edge scientific information, 
and 1 wholeheartedly support the researchers that make it possible. If 
confirmed, I will he an advocate for water technology research and 
would look forward to working with the Committee to enhance the 
Department's already impressive record in this area.

                         DOYON YUKON FLATS EIS

    Question 11. Interior's F&W Service has been finishing an EIS of a 
potential land exchange in Alaska's Yukon Flats National Wildlife 
Refuge for two years. The exchange would make it easier for an Alaska 
Native Corp.--Interior's Doyon Corp.--to drill for natural gas 
deposits, while actually improving wildlife habitat in the Interior of 
Alaska. The EIS is probably 95% complete. I would encourage you to see 
that the EIS is finished, published and submitted for public comment so 
that an informed decision can be made on this issue soon. Finishing the 
EIS won't lock the Administration into proceeding with the land 
exchange, but not finishing it will guarantee that this issue will 
never be settled one way or the other.
    Will you commit to finishing the Doyon Yukon Flats EIS?
    Answer. This issue is under the purview of the Assistant Secretary 
for Fish and Wildlife and Parks. While I am not aware of all of the 
details related to the land exchange, it is my understanding that the 
Fish and Wildlife Service is moving forward to finalize the EIS, and 
that the Service anticipates that it should be completed in FY 2010. If 
confirmed, I will work with my counterparts here at the Department, as 
appropriate, on this issue.

                              NSSI FUNDING

    Question 12. The US Fish and Wildlife Service is considering 
listing dozens of Alaskan species under the Endangered Species Act, 
such as walruses and differing varieties of seals. The North Slope 
Science Initiative (NSSI) was established in Alaska to produce sound 
science upon which to base these important policy decisions, but 
funding for the NSSI has been very limited and is nonexistent in the FY 
2009 Omnibus budget.
    What is your view on funding for increasing wildlife science 
studies as you build future budgets, like the FY 2011 budget?
    Answer. Like President Ohama, I believe that understanding science, 
technology, and innovation will be key to strengthening our economy and 
forming policy that will work for the American people. The President 
has called for a national strategy to nurture and sustain a culture of 
scientific innovation. If confirmed as Assistant Secretary at the 
Department of the Interior, I will commit to a fair and balanced 
approach to consideration of finding needs, including support for 
scientific research.

                          IZEMBEK EIS FUNDING

    Question 13. Congress earlier this spring passed the Omnibus lands 
bill that calls for a land exchange involving the Izembek Wildlife 
Refuge on the Alaska Peninsula. This legislation provided for a one-
lane gravel road, from Cold Bay to the King Cove airport, for medical 
emergency cases. The law requires DOI to do an environmental impact 
statement on the impacts of the road and the rest of the land exchange.
    Will you support funding for the Department to use to perform the 
EIS, if confirmed?
    Answer. This issue is under the purview of the Assistant Secretary 
for Fish and Wildlife and Parks, and any decisions related to 
implementation of that provision in the Omnibus Public Land Management 
Act would he made by that office. Nevertheless, I know that this issue 
is important to you. I am informed during his confirmation process, 
then-nominee for Assistant Secretary for Fish and Wildlife and Parks 
Tom Strickland noted that that the legislation requires the Department 
to comply with the National Environmental Policy Act and to prepare an 
Environmental Impact Statement (EIS) within 60 days of being notified 
by the State and the King Cove Corporation of their intent to exchange 
the lands identified in the Act. The purpose of an EIS is to provide an 
assessment of the environmental impacts of a proposed agency action, so 
an EIS must be carried out before an agency decision is made. If 
confirmed, I will work with my counterparts in the Department, as 
appropriate, on this issue.

                       WOOD BISON REINTRODUCTION

    Question 14. The Alaska Department of Fish and Game is currently 
working with the United States Fish and Wildlife Service to reintroduce 
Wood Bison near Fairbanks, Alaska, and obtain a non-essential 
designation for these Wood Bison.
    The 10(j) and 4(d) provisions of the Endangered Species Act will 
provide a strong and legally defensible set of regulations that will 
apply to the management of wood bison, and will include exemptions from 
most of the regulatory requirements that normally apply to endangered 
species.
    If confirmed, will you commit to direct the USFWS to make a 
determination on using the experimental population designation through 
the 10(j) and 4(d) provisions for the Woodland Bison within the next 6 
months?
    Without such a designation in the near future there is little to no 
chance of this issue being resolved in a satisfactory manner to the 
people of Alaska.
    Answer. Endangered Species Act implementation issues fall under the 
purview of the Assistant Secretary for Fish and Wildlife and Parks, and 
decisions that relate to the potential listing of Wood Bison and any 
accompanying regulation will be made by that office. Nevertheless, I am 
informed that during his confirmation process, then-nominee for 
Assistant Secretary for Fish and Wildlife and Parks Toni Strickland 
noted that, under sections 10(j) and 4(d) of the ESA, the Service has 
the ability, as appropriate, to provide management flexibility for 
species that are reintroduced. He also committed to working with the 
State of Alaska and the Service to ensure that the Department moves 
forward on this matter in a timely and responsive fashion.

      Responses of Anne Castle to Questions From Senator Landrieu

    Question 15. The Water Resources Research Act (WRRA) established a 
federal-state collaboration with institutions of higher education--I 
support this Act. Are you familiar with the work of the state water 
resources research institutes established under the provisions of the 
Water Resources Research Act? Do you believe that the institutes are 
effective in working with state and local stakeholders on water 
resources research issues?
    Answer. I am aware of the state water resources research institutes 
and consider them to be an important component of our Nation's water 
research and training infrastructure. I understand that the institutes 
work closely with State and local stakeholders and that for every 
federal dollar that the institutes receive, they receive several more 
from non-federal stakeholders to work on important issues.
    Question 16. I am pleased to see that the Interior Department has 
requested funding in the FY 2010 budget of the U.S. Geological Survey 
to support the WRRA program. Will you ensure that the Survey and the 
Department make full use of the research, information transfer, and 
education and training capabilities of this program?
    Answer. The Administration values the role of science to inform 
decision-making. If confirmed, I will ensure that the USGS and the 
Department make full use of the research, information transfer, and 
education and training capabilities of the WRRA program.
    Question 17. President Obama and Secretary Salazar have both spoken 
forcefully about the need to restore the role of science to the 
forefront of policy development and decision making in this 
Administration. How do you foresee the water science agenda developing 
in the next several years at the USGS and with the scientific community 
at our universities, particularly our land-grant universities?
    Answer. There is no doubt that sound science should serve as a base 
for policy development and decision making, and I fully intend to do 
all I can to ensure that this happens. In recent years, we have 
witnessed an increase in water-resources conflicts around the Nation. 
There is a need to apply more scientific expertise to solve these 
problems and narrow the areas of dispute, and if confirmed, I will 
encourage the USGS to continue to embrace opportunities to partner with 
universities and work with other partners in this effort.

         Response of Anne Castle to Question From Senator Udall

    Question 18. The Water Resources Research Act created an important 
program that has significant support within Congress. The program's 
objectives are water research, information transfer, and education and 
training. I understand that many water managers in the West and 
throughout the country have been trained through this program. How can 
we best utilize the water resources research institutes located at the 
land grant universities to improve the work of the bureaus under your 
direction and produce the next generation of water scientists, 
engineers, and managers?
    Answer. I consider the state water resources research institutes to 
be an important component of our Nation's water research and training 
infrastructure. I understand that the institutes work closely with 
State and local stakeholders and that for every federal dollar that the 
institutes receive, they receive several more from non-federal 
stakeholders to work on water-related science and policy issues. Both 
the USGS and the Bureau of Reclamation have utilized the institutes to 
draw upon the expertise of the university community to assist them in 
addressing specific problems. The Water Resources Research Act 
explicitly encourages the Secretary of the Interior to utilize and take 
advantage of the expertise and capabilities available through the 
institutes. If confirmed, I will encourage the USGS and the Bureau to 
take full advantage of the institutes because they provide us with 
access to valuable sources of expertise while contributing to the 
training of the talent we need to address existing and future water 
problems.
                                 ______
                                 
   Responses of Catherine R. Zoi to Questions From Senator Murkowski

                   RESOURCES WITHIN LAND WITHDRAWALS

    Question 1. This Committee regularly considers legislation to 
designate certain federal lands for a particular purpose. Quite often, 
those designations include lands with significant natural resource 
potential that could be locked up if the proposal moves forward. I have 
a standing request that the Interior Department provide very specific 
information on the natural resources that may be rendered unavailable 
by bills before this Committee. It is my understanding that the 
Interior Department may require some assistance from DOE to ascertain 
what raw materials are used for which alternative energy technologies.
    Will you commit to coordinating with the Interior Department on my 
request so that this Committee has the most accurate information 
possible related to any legislation that we may we consider?
    Answer. Yes

                               BUDGETING

    Question 2. As you know, billions of dollars were directed to EERE 
as a result of the American Reinvestment and Recovery Act. What is the 
status of the programs that the money was intended for? How do you plan 
to manage these programs when inevitably, next year and for years to 
come, the annual budget will provide dramatically lower funding levels?
    Answer. I am not familiar with the details, but my understanding is 
that the Department has worked quickly to get Recovery Act funds 
obligated, and to establish the accountability and tracking systems 
that are needed. If confirmed, I will make management of these funds 
one of my top priorities. In addition, I will work to examine how we 
can smooth the transition period after the Recover Act funds are spent.

                          APPLIANCE STANDARDS

    Question 3. Please describe how issues surrounding the Appliance 
Standards Program have put Congress in a position where it seems 
necessary to legislate appliance standards. How do you plan to address 
the backlog of regulations that need to be made in this area? Do you 
feel that you have or will have the workforce necessary to complete 
your objectives?
    Answer. I strongly believe that doing a better job on appliance 
standards is one of the most important items on the energy efficiency 
agenda. Although I have had some initial discussions about the issue, I 
do not at this time have fully formed views about the causes of past 
delays, and whether legislation or additional resources are required. 
If confirmed, I pledge to work hard to improve this critical program, 
and to work with closely with you on it.

                              ENERGY STAR

    Question 4. Please describe EERE's relationship with the 
Environmental Protection Agency in regards to the Energy Star Program. 
In your opinion, how can this relationship be improved?
    Answer. As I noted in my testimony, I was proud to lead the team at 
EPA that created the Energy Star program. I have retained a strong 
interest in the program over the years, but am not completely up to 
speed on the EPA-EERE relationship. It is my understanding that the two 
agencies are in productive discussions about how to improve cooperation 
on this vital program. If confirmed, I will work to strengthen Energy 
Star and to ensure that EPA and DOE are working together effectively.

             DIFFERENTIATING AMONG FOREIGN ENERGY SUPPLIERS

    Question 5. You have asserted that failing to wean ourselves off of 
foreign oil will negatively impact our national security. I agree with 
you. I also know that it will take a great deal of time to accomplish 
this task. In the meantime, we must be careful about the policies that 
we pursue.
    Section 526 of the 2007 energy bill prohibits the government from 
purchasing fuels with a greenhouse gas footprint that exceeds 
conventional gasoline. Given our reliance upon Canadian tar sands to 
meet domestic demand for energy, this provision will have an 
increasingly negative impact on national security.
    How important do you believe it is to differentiate among foreign 
suppliers, to the extent that eliminating our reliance upon them proves 
a difficult task? Is it better to get fuel from Canada than from the 
Middle East?
    Answer. I think the key goal is to reduce the dependence of our 
transportation system on oil, regardless of source. The most promising 
technologies at present are next-generation biofuels and plug-in 
hyrbrids If confirmed, I look forward to working to advance these 
important technologies.

                         TIMING OF ENERGY SHIFT

    Question 6. In attempting to reduce our dependence on foreign oil, 
we must be realistic about how long that effort may take. I am very 
concerned about some of the unintended consequences that may accompany 
alternatives resources, particularly with regard to land use, 
reliability of supply, and the adequacy of infrastructure.
    How long do you believe it will take to eliminate our reliance on 
foreign oil, and what fuel or fuels do you believe we should rely upon 
to get to that point?
    Answer. As you note, moving away from oil will take time. I don't 
have a schedule in mind, but I do pledge to work hard to accelerate 
deployment of the most promising technologies as quickly as possible. 
As noted above, I believe the most promising technologies at present 
are next-generation biofuels and plug-in hybrids.

              100 PERCENT `CLEAN' ELECTRICITY IN 10 YEARS?

    Question 7. The ``Alliance for Climate Protection'' marketing 
campaign, of which you served as the Chief Executive Officer, calls for 
``repowering America'' to use 100% clean electricity within 10 years. I 
have a series of questions related to this time-frame and whether or 
not it is your intent to pursue such an agenda if confirmed as the 
Assistant Secretary for EERE:

    a. Existing Electric Fleet: Much of the existing power fleet is not 
`clean', under your definition of that term, and yet many of those 
plants have a useful life that extends far beyond the decade that you 
have advocated for transitioning entirely away from them.
    Do you believe power plants that do not meet the Alliance for 
Climate Protection's definition of `clean' should be shut down before 
the end of their useful life?
    In the case of coal-fired power plants, do you believe that 
retrofitting them to capture and sequester their greenhouse gas 
emissions should be mandatory in order to meet the Alliance for Climate 
Protection's definition of clean within 10 years?
    Do you believe that carbon capture and sequestration technologies, 
for retrofit or incorporation into new plants, are commercially ready 
for deployment and would not have a negative impact on reliability of 
the grid or affordability of power?
    Answer. The goal of the Alliance ``Repower America'' campaign was 
to illustrate the technological feasibility of getting to 100% clean 
electricity within 10 years. The analysis did not include a detailed 
plan about whether and when power plants should be shut or retrofitted. 
If I am confirmed, I look forward to working to support Secretary Chu's 
vision for energy, and will focus my energies on the energy efficiency 
and renewable energy portfolio at the Department of Energy.

    b. Approach to clean energy development: Outside of mandating the 
use of a particular energy resource, the issue of price parity is one 
that figures prominently into market-based decisions as to whether 
alternative energy technologies are deployed or not.
    Do you believe that making energy resources that do not meet the 
Alliance for Climate Protection's definition of `clean' more expensive 
is an effective way to achieve greater deployment of alternative energy 
resources?
    Answer. As I mentioned at the hearing, I think there are a variety 
of policy tools that we can use to encourage greater deployment of 
clean energy technologies, including a cap-and-trade system, a 
renewable electricity standard, and appliance efficiency standards.

    c. Role for nuclear and hydroelectric electricity: Vice President 
Gore has asserted that, in attempting to get to `100 by 2018', nuclear 
and hydroelectric power should stay at their current levels. Analyses 
of cap-and-trade bills, and the Lieberman-Warner legislation in 
particular, have shown that as much as 51 percent of new, compliant 
power built by 2030 will be generated by nuclear. The highest figure is 
from the Department of Energy's own Energy Information Administration, 
which found that 264 Gigawatts of 517 Gigawatts likely to be built 
through 2030 will come from nuclear.
    Do you believe that the Energy Information Administration's 
analysis is wrong and, if not, how is the Vice President's desire to 
see nuclear and hydroelectric kept at their current levels realistic? 
If so, what is the basis for your disagreement with them?
    Do you believe that nuclear and hydroelectric power should count 
towards cap-and-trade compliance?
    Answer. I'm not familiar with the EIA study you cite, but as I 
mentioned in the hearing, nuclear is clearly a low-carbon energy 
source. Although I will be focusing on energy efficiency and renewable 
energy, the Secretary has made it clear that he believes nuclear power 
must continue to play an important role in the coming decades. Under a 
cap-and-trade system, I think that all forms of low-carbon electricity 
stand to benefit.
    Question 8. Opposition to new nuclear power: In an October 2006 
article in The Australian, you described nuclear power as 
``impractical'' as a part of the solution to climate change. Nuclear 
power provides approximately 20 percent of our electricity, and nearly 
two-thirds of our greenhouse gas-free power. Last year, the production 
cost of nuclear power was 1.8 cents per kilowatt hour--even lower than 
coal. A nuclear power plant, in terms of land use, requires as little 
as one-half an acre for each megawatt of output. Wind farms, on the 
other hand, require 60 acres per megawatt. The average capacity factor 
for American plants was 91.5% last year, which compares to an average 
of 25 to 40% for wind and less than 20% for photovoltaic solar. Nuclear 
power plants are expensive, but have proven time and again to be good 
investments for the ratepayer and the utilities. And nuclear waste can 
be recycled in a way that maximizes efficiency, minimizes environmental 
impact, and advances non-proliferation--if only we assert the political 
will that you speak so strongly for in support of some other energy 
resources.
    What about nuclear power then, is ``impractical''?
    Do you believe nuclear power should be a greater part of our energy 
mix as we take steps to address global climate change, or do you agree 
with Vice President Gore that the contribution of nuclear power should 
be held constant?
    Answer. There is strong public opposition to nuclear power in 
Australia, and I was reflecting that reality in describing nuclear as 
impractical for that reason in that country. I was not describing 
nuclear as impractical in any other context or for any technical or 
other reason. I do think nuclear has an important role to play as we 
move to lower-carbon energy sources.

                     PUBLIC SUPPORT FOR CARBON CAPS

    Question 9. In an October 2007 interview, you cited polling that 
found 80 percent of Americans were ``aware that the climate is 
changing''. But other polls on climate change have revealed a much less 
significant level of support for actually doing what many believe is 
necessary to avert the worst consequences.
    Are you concerned about this?
    Is there some aspect of climate change that you think the public is 
failing to understand?
    Answer. I think that there is a growing consensus about the need to 
act, but I do think we can do a better job informing people about 
solutions. Energy efficiency offers a tremendous opportunity for 
families to reduce their energy bills, and if I'm confirmed, I will 
work to better inform people about them.

         USE OF THE CLEAN AIR ACT TO REGULATE CARBON EMISSIONS

    Question 10. You have called the absence of federal controls on 
greenhouse gas emissions a `carbon loophole'. I would consider a 
loophole to be something that occurs despite the existence of a law 
meant to prohibit it. I am unaware of a federal law that directly 
limits greenhouse gas emissions, despite the best efforts of Congress 
to enact one.
    Do you believe it was Congress' intent to regulate greenhouse gas 
emissions under the Clean Air Act?
    Answer. I do not have a view on this issue, though I understand 
that the Supreme Court has ruled on it. I think the best way to deal 
with climate change is through new legislation, such as a cap-and-trade 
bill.

               COST CERTAINTY VS. ENVIRONMENTAL CERTAINTY

    Question 11. I co-sponsored climate legislation offered by Chairman 
Bingaman and Senator Specter during the last Congress. The safety valve 
contained in that bill, and the cost certainty associated with it, was 
a very important component of the legislation to me.
    Do you think the costs associated with global climate change 
mitigation should factor into decisions related to undertaking it? Is 
there a balance to be struck?
    Answer. Yes, we do need to strike a balance. One of the reasons 
that I'm so excited about the EERE portfolio is that there are many 
energy efficiency opportunities that actually save consumers and 
businesses money and reduce greenhouse gas emissions. There are a 
variety of barriers that stand in the way of fully realizing these 
opportunities, and if I'm confirmed I look forward to working to break 
them down.

                        CLIMATE CHANGE RHETORIC

    Question 12. A serious effort has been undertaken to `sell' climate 
change, as evidenced by the marketing nature of the Alliance for 
Climate Protection. It is my understanding that Council on 
Environmental Quality staff has met with communications consultants on 
a number of occasions. And last year, with regard to messaging, you 
were quoted in the Washington Post as saying that ``We have to 
mainstream this. It has to become easy and normal.'' In my opinion, 
what we really need is an open and honest debate about what the problem 
is and what Americans are willing to do to try and fix it.
    Will you commit to focusing not on a marketing campaign but on a 
fact-driven and honest discussion with the public about what we can do 
to address the problem?
    Answer. Yes.

                               CARBON TAX

    Question 13. Ralph Nader and Toby Heaps, writing in the Wall Street 
Journal in December 2008, advocated for a global carbon tax. Their 
reasoning was interesting. Since each nation's proportionate share of 
emissions is always changing, it may be difficult to decide what cap 
any individual country should be subjected to over time. China has 
surpassed us in greenhouse gas emissions and India may do the same.
    In attempting to simplify international negotiations for what is a 
global problem, do you believe imposing a similar tax in value per ton 
emitted could be easier than bickering over who is responsible for what 
share of the cuts?
    I know you advocate a cap on emissions, but do you see any upside 
at all to a carbon tax or is a cap superior in every conceivable way? 
Should a global cap be based on per-capita emissions?
    Answer. In my view, international linkages is actually a reason to 
favor cap-and-trade over a carbon tax, in that a U.S. cap-and-trade 
system could be linked to the EU and other systems, creating a truly 
global market. For this and other reasons, I think a cap-and-trade 
system is an effective means for us to achieve our climate objectives.

                     USE OF CAP-AND-TRADE REVENUES

    Question 14. A great deal of money is at stake in the form of free 
allowances or auction revenues under a cap-and-trade program. 
Politicians have advocated for spending that money on everything from 
tax cuts, to R&D, to healthcare reform.
    If you were advising members of the Congress, and the 
Administration, what would you suggest cap-and-trade revenues be spent 
on?
    Answer. If confirmed, I would work to help implement the priorities 
that Secretary Chu and President Obama have outlined in this regard. As 
I understand it, those priorities include funding for clean energy R & 
D, as well as assistance for vulnerable businesses, families and 
communities.

               COMMERCIAL VIABILITY OF CLEAN TECHNOLOGIES

    Question 15. In 1997, you said that the technologies needed to cut 
greenhouse gas emissions in Australia for Kyoto Protocol compliance 
were ``tried, tested and off the shelf.'' There are many different 
programs at the Department of Energy whose justification for existing 
is that this is not the case.
    Are these programs unnecessary? Are subsidies related to all energy 
resources unnecessary?
    Answer. I believe that we have many technologies--energy efficiency 
foremost among them--for meeting our near-term goals. However, we will 
need new and better technologies to meet the steep, long-term 
reductions that are required to avoid the worst impacts of climate 
change, and research and subsidies are important to bringing these 
technologies to market.

               COMPARING ACID RAIN PROGRAM TO CARBON CAPS

    Question 16. You have cited the Acid Rain program as a model for 
the achievability of a domestic cap on greenhouse gas emissions. But 
there are significant differences between that program and the one 
being considered for carbon--with regard to acid rain, there were only 
about 3,000 emission points to cover, the technologies were ready, and 
we had low-sulfur sources of coal in the Powder River Basin. The 
challenge we face today is much different. For starters, there is no 
low-carbon coal.
    Do you believe current CCS technologies are at the same point that 
scrubber technologies used for compliance with the acid rain program 
were in the early 1990s?
    Answer. I am confident that we can move swiftly to demonstrate CCS 
technology at scale and to deploy it. I know that this is a priority 
for Secretary Chu, and though it will not be within my EERE portfolio, 
I whole-heartedly support Secretary Chu's vision for coal.

                     VISION OF THE ELECTRICAL GRID

    Question 17. In an article published earlier this year, you 
envisioned an electrical grid that would ``allow early-evening winds 
off the Delaware coast to help power afternoon air conditioning in 
California.'' You also envisioned ``solar power produced in Arizona to 
support manufacturing centers in Ohio.''
    a. Siting/Cost Allocation: As you know, our committee has been 
working on a transmission title that may ultimately be included in a 
broader energy bill. Some of the toughest issues to resolve are 
implicit in your examples--specifically, cost allocation and siting 
authority.
    Can federal and state regulators make progress on a collaborative 
basis, or do you believe additional federal siting authority needed?
    Who do you think should be responsible for paying for new 
transmission lines, particularly renewable feeder lines? Should regions 
that do not directly benefit from a line be required to help pay for 
its costs?
    b. Regional Impacts: The manufacturing centers you referred to in 
Ohio are already there, and that has a lot to do with the availability 
of affordable coal-fired power in that region. Given the difficulties 
associated with building transmission lines, under your vision, that 
manufacturing center would more likely re-locate directly to Arizona 
for solar power than remain in Ohio. That is why so many of us are 
concerned about regional impacts.
    Do you think a national grid will result in any negative regional 
impacts, and if so, how can those impacts be mitigated?
    Answer. Siting and cost allocation are challenging questions. I do 
believe that a more interconnected grid would serve an important 
national purpose. In the process of building that grid, we need to find 
the right balance between that national interest and the interests of 
particular states, localities and citizens; we also need to find the 
right balance in allocating the cost of transmission system upgrades. I 
do not have a perfect formula at the ready, but if confirmed, I pledge 
to work closely with you on these critical issues.

                    SUPPORT FOR INTERNATIONAL TREATY

    Question 18. In 1997, during the Clinton Presidency, the Senate 
voted unanimously, 95-0, in favor of a resolution declaring that the 
United States should oppose any climate change agreement that would 
``(A) mandate new commitments to limit or reduce greenhouse gas 
emissions for the Annex I Parties, unless the protocol or other 
agreement also mandates new specific scheduled commitments to limit or 
reduce greenhouse gas emissions for Developing Country Parties within 
the same compliance period, or (B) would result in serious harm to the 
economy of the United States.'' That vote took place on July 25, 1997; 
our economy grew at a rate of 4.5 percent that year. In the first 
quarter of this year, by comparison, our economy contracted at a rate 
of 5.7 percent.
    Do you believe anything has changed between 1997 and now, in terms 
of Americans' desire to not be disadvantaged in terms of economic 
opportunities, or by a failure of developing nations to participate?
    Answer. Global warming is a global problem that requires a global 
solution, and that means the participation of China, India and other 
countries. At the same time, I think that the U.S. has an obligation 
and an opportunity to lead, and I believe that we should move forward 
with a domestic program to reduce our emissions in a cost-effective 
way.

                                BIOFUELS

    Question 19. The Department of Energy's Biomass Program, which 
includes a number of major biofuels projects, is part of EERE.
    Can you describe your views on the potential for biofuel production 
and consumption in the United States, and the role you see them playing 
in the United States' energy supply in the years ahead?
    Answer. I believe that biofuels offer great potential to provide a 
significant fraction of our transportation fuel. In large part, this 
will depend on development of next-generation biofuels, something that 
I look forward to working on if I am confirmed.

                             ALGAL BIOFUELS

    Question 20a. The Office of Biomass recently released a report 
entitled ``Microalgae Feedstocks for Biofuels Production.'' It states 
that ``these fuels could potentially replace 50 percent or more of the 
total diesel used in the United States, using marginal land and saline 
water'' and asserts that ``algae-based biofuels deserve consideration 
for research and development in the future.'' Unfortunately, algal 
feedstocks are most entirely excluded from the Renewable Fuels 
Standard, which is our nation's primary mechanism to boost the 
development of biofuels.
    Will you commit to working with the Committee to ensure that algae 
and other promising feedstocks have equal opportunity to contribute to 
our nation's future energy supply?
    Answer. Yes.
    Question 20b. Would you support changes to the current Renewable 
Fuel Standard that enable algae to benefit from the guaranteed market 
it provides?
    Answer. As I understand it, the RFS is under the EPA's 
jurisdiction, but I look forward to exploring ways to promote the use 
of a diversity of biofuels, including algae.
    Question 20c. Do you believe that algae should receive financial 
incentives comparable to those available for other feedstocks, such as 
corn starch and cellulose?
    Answer. I believe that we should support renewable resources that 
need help getting to market viability, and I plan to take a detailed 
look at what types of incentives might be appropriate for algae.
    Question 20d. In general, should our nation's biofuel policy 
prioritize the use of feedstocks that cannot be used as food, that do 
not utilize fresh water or large amounts of land, and that actually 
consume carbon dioxide during the production process?
    Answer. We need to use our resources wisely. We need a diversity of 
sources for energy, and when it comes to biofuels, broadening the base 
of feedstocks is part of that solution.

                           BIOFUEL SUBSIDIES

    Question 21a. According to the Environmental Working Group, 76 
percent of federal renewable energy subsidies went to corn ethanol in 
2007. That represents a total of about $3 billion, while wind, solar, 
and other renewable resources received roughly $750 million.
    Do you believe this reflects an appropriate balance, or should 
federal subsidies be more evenly distributed among renewable resources?
    Answer. I appreciate the issue of aligning funding with priorities 
that can provide significant overall public benefit. If confirmed, I 
look forward to taking a detailed look at the current distribution of 
support and working with you to ensure appropriate levels of 
investment.
    Question 21b. Do you believe existing subsidies for corn ethanol 
production are too high?
    Answer. Corn ethanol has played an important role in establishing a 
domestic biofuels industry. As Secretary Chu has pointed out, corn can 
only take us so far in terms of scale, and therefore we need to invest 
in new technologies that will make it possible to use other feedstocks 
to create transportation fuels. I look forward to working with 
Secretary Chu on the next generation of biofuels. These fuels, which 
can be derived from waste streams and crops like sorghum and 
switchgrass, hold tremendous promise.

                    LIFECYCLE EMISSIONS OF BIOFUELS

    Question 22a. According to the EPA, some biofuels result in only 
slight reduced emissions, or perhaps even increased emissions, compared 
to conventional gasoline.
    Do you believe it is appropriate to require biofuels to meet 
minimum environmental performance thresholds, such as the reductions in 
greenhouse gas emissions established by the 2007 energy bill?
    Answer. I think it is important to find ways to reduce greenhouse 
gas emissions across the board, and the policy tool you cite is an 
important one for biofuels.
    Question 22b. Do you support the inclusion of indirect emissions, 
including from domestic and international land use changes, in the 
calculation of lifecycle emissions for biofuels?
    Answer. I understand that analysis of indirect emissions, including 
land use, is required under current law, and I support implementing 
this provision in a thoughtful way. My understanding is that EPA has 
made a proposal in this regard, and that it is currently out for peer 
review and public comment.
    Question 22c. Do you believe it is appropriate to subsidize 
biofuels that have little to no positive impact on the environment and 
our efforts to reduce greenhouse gas emissions?
    Answer. A diversity of feedstocks is important to our energy 
security, but we should emphasize fuels that can achieve the twin goals 
of reducing our reliance on foreign sources of energy and reducing 
greenhouse gas emissions.

                        INTERMEDIATE FUEL BLENDS

    Question 23a. The Department of Energy and several other government 
agencies are in the process of evaluating the use of intermediate 
ethanol-gasoline blends (between E10 and E85). However, numerous 
stories have also indicated that widespread use of fuels with higher 
ethanol content could damage trillions of dollars worth of vehicles, 
equipment, and infrastructure.
    How do you think our nation's stated desire to increase biofuel 
production can be reconciled with the difficulties of making sure that 
production does not have adverse consequences for public health and 
private property?
    Answer. This is an important question that needs to be carefully 
evaluated. I do not have a view at this time about the impact of 
increased ethanol blends on vehicles and other equipment.
    Question 23b. Do you support a flex-fuel vehicle mandate? Do you 
believe that additional incentives should be provided to facilitate the 
deployment of E85 fueling stations?
    Answer. I believe that we should invest in the necessary 
infrastructure and incentives to promote the deployment of vehicles 
that will accomplish the twin goals of reducing our reliance on foreign 
sources of energy and reducing greenhouse gas emissions.

                      BIOFUELS AND BIOELECTRICITY

    Question 24. A paper published in Science reports that it is 
significantly more efficient--in terms of distance traveled and 
emissions offset--to convert corn and switchgrass into electricity 
instead of liquid fuel. If this is accurate, then it may be that 
electric vehicles hold greater potential than internal combustion 
engines powered with renewable biofuel.
    If confirmed, how will you ensure that our policies reflect the 
best use of renewable resources such as biomass?
    Answer. If confirmed, I plan to work with this committee to make 
sure that we are efficiently using renewable resources and taking a 
holistic look at our use of renewable energy.

                        LOW CARBON FUEL STANDARD

    Question 25. The State of California has enacted a Low Carbon Fuel 
Standard to reduce the ``carbon intensity'' of transportation fuel. A 
federal mandate has been proposed in both chambers of Congress, but 
many experts have concluded that it be costly, ineffective, and 
detrimental to national security.
    What are your general views on a federal Low Carbon Fuel Standard?
    Answer. I support reducing our carbon output across various sectors 
of the economy, including transportation. If confirmed, I plan to 
examine the costs and benefits of a Low Carbon Fuel Standard and other 
proposals.

                           CASH FOR CLUNKERS

    Question 26a. It is possible that the Department of Energy may be 
responsible for administering a nationwide ``Cash for Clunkers'' 
program, if it is enacted by Congress.
    Do you believe such a program is a good use of limited taxpayer 
dollars?
    Answer. To the extent that market barriers exist inhibiting 
sensible environmental and economic outcomes in the auto purchasing 
sector, I support the concept of providing an incentive to help 
consumers get inefficient vehicles off the road.
    Question 26b. Do you believe such a program should include 
stringent requirements in order to ensure not only economic stimulus, 
but also environmental benefits for those who do not participate?
    Answer. I believe that a properly designed ``Cash for Clunkers'' 
program could help automakers, consumers, and the environment.

                           APPROACH TO POLICY

    Question 27a. The President has indicated that he intends to place 
great emphasis on energy policy, and seek to accelerate the transition 
to a cleaner energy future.
    Please list, and provide as much detail as possible for, several of 
the most important policies that you would have the Office of EERE 
pursue to improve our nation's energy policy.
    Answer. Management--I know that there is a lot of work to be done 
to make sure that EERE spends the taxpayers' money responsibly. I am 
looking forward to rolling up my sleeves to make sure that we are 
responsible stewards of those funds, and it starts with being an 
effective manager. This is especially true for making sure that the 
Recovery Act money going through EERE is spent quickly but with 
accountability.
    Energy Efficiency--As the Secretary repeatedly points out, 40% of 
the energy we use in the US is in buildings, and there are big gains to 
be made in energy efficiency. Making sure that we are taking advantage 
of opportunities to reduce our energy usage through efficiency will be 
a top priority.
    Commercialization of Technologies--DOE has been and will continue 
to be excellent at R&D, but I plan to emphasize the work we can do at 
EERE to go from research to commercialization and market penetration 
for renewable technologies. The valley of death has been even harder to 
traverse in the current economy, making our role in investing in these 
technologies as they look to achieve market penetration and maturity 
even more important.
    Question 27b. Do you believe it is more important to concentrate on 
policies that will increase renewable energy generation, or policies 
that will reduce greenhouse gas emissions?
    Answer. I believe that these goals can, and should, go hand in 
hand.
    Question 27c. Do you believe the standards, mandates, and other 
regulations that make up our nation's energy policy should be 
technology-neutral, and provide subsidy parity to all qualifying 
resources?
    Answer. In general I believe that government should set goals and 
allow the private sector to find the best technological solutions. That 
said, some technologies are further along than others, and treating 
them all equally could be the death knell for some that have would 
benefit greatly from government investment to reach market 
competitiveness.

                              OCEAN ENERGY

    Question 28a. Your writings do not include a lot on your views 
about the potential for ocean hydrokinetic energy. Coming from Alaska 
with 34,000 miles of coastlines and EPRI's estimates that the state 
could generate 1,250 terrawatts of power from tidal and wave energy, 
and given that your office will control research and funding for ocean 
energy, I would like to hear your views on what role hydrokinetic 
energy should play in the renewable energy mix.
    How willing will you be to espouse development aid for the 
technology?
    Answer. I believe there is strong potential for tidal and wave 
energy. If confirmed, I look forward to working with the committee on 
funding levels for the water program.
    Question 28b. The proposed FY 2010 budget contains only $30 million 
for research and demonstration grants. Do you believe that is the right 
amount, or is more needed?
    Answer. As I understand it, the FY10 budget is 10 times what DOE 
requested for FY09. If confirmed, I look forward to assessing if more 
is needed for water power R&D.

                           OCEAN-WIND ENERGY

    Question 29a. There is growing talk of trying to site wind and 
ocean wave devices together on offshore energy platforms.
    What is your view of trying to marry the two renewables together to 
improve frequency of power and to lower transmission costs per kilowatt 
produced?
    Answer. I have not taken a detailed look but am generally 
supportive of approaches to reduce the cost of renewables and increase 
electricity reliability.
    Question 29b. What should we in government be doing to help such a 
trend, if you favor it?
    Answer. If confirmed, I look forward to evaluating what support DOE 
could potentially offer for such a trend.

                               GEOTHERMAL

    Question 30a. Alaska is a state where about half of the landmass 
sits over hot mantle that might be conducive to geothermal technology. 
We don't have a shallow plate boundary like Iceland does, but we do 
have 60 active volcanoes, 40 of which has erupted over the past 300 
years and still produce a lot of heat.
    If confirmed, will you target aid only for development of existing 
hydrovent prospects, only for development of enhanced geothermal 
technology--the mining of hot rocks--or both?
    Answer. I believe that we should invest in both conventional and 
enhanced geothermal, and I believe the Department is currently putting 
forth efforts to this end.
    Question 30b. What is your view of how DOE should spend its money, 
and how much it should spend, on geothermal development?
    Answer. If confirmed, I will take a close look at the current 
spending plan for geothermal and examine if adjustments are necessary.

                            WIND GENERATION

    Question 31. I've read a number of your published articles where 
you support massive increases in wind power. Wind is a great addition 
in Alaska where rural electricity costs, at present, about 65 cents per 
kilowatt hour. But even on the Great Plains the wind does not blow all 
the time, about 40 percent efficiency is considered very good 
performance for wind turbines.
    How will the interstate transmission grid make up for the down 
times when the wind is not blowing, if not by burning fossil fuels to 
cover peaking power needs?
    Answer. We need to modernize the grid, and I understand the 
committee has been working to include provisions in their legislation 
to that end. With a nationally interconnected grid, the capacity to 
balance and optimize baseload, intermediate and peaking resource types, 
including renewable, carbon-based, nuclear and conservation, alongside 
the varying demands across the nation could improve considerably.

                           ENERGY EFFICIENCY

    Question 32a. Energy efficiency is often described as the ``low 
hanging fruit'' of energy policy. Some groups refer to it as the 
``cleanest, cheapest, and fastest'' domestic energy resource.
    What are the top five steps you intend to advocate from the federal 
level at EERE to promote energy efficiency?
    Answer. Ensure consumers and businesses get access to efficient 
technologies through standard-setting and promotion programs like 
Energy Star; ensure new construction takes advantage of efficient 
technologies and practices through improved building codes; ensure the 
existing built environment is enhanced and improved through widespread 
weatherization and retrofit programs; ensure utilities and other 
service providers are aligned in the aggressive pursuit of efficiency 
opportunities; ensure there is investment in R&D to continually improve 
the efficiency of homes, businesses and industry.
    Question 32b. What do you believe is achievable, in percentage 
reduction terms, as far as reducing U.S. energy demand over the next 
decade?
    Answer. We can make significant gains in efficiency. As the 
Secretary has pointed out, 40% of our energy use comes from buildings, 
and existing technologies have the potential to reduce our energy 
consumption in buildings by upwards of 50%. That is a 20% potential 
reduction just in one sector, and without new technological 
breakthroughs. Smarter use of our grid and other efficiency gains can 
increase that percentage even further.

                   RENEWABLES IN THE PACIFIC ISLANDS

    Question 33. In April, the National Renewable Energy Laboratory 
announced that as part of the Energy Development in Island Nations 
(EDIN) program, the U.S. would work with the U.S. Virgin Islands to 
develop a plan to deploy more renewable energy and energy efficient 
technologies. This is a commendable goal. In addition to the U.S. 
Virgin Islands, among those who could be most impacted by climate 
change are the Pacific Islanders, including the U.S. territories of 
Guam, the Commonwealth of the Northern Mariana Islands, and American 
Samoa, as well as the Freely Associated States of Palau, the Republic 
of the Marshall Islands, and the Federated States of Micronesia. These 
populations also feel the impact of high fossil fuel costs much more 
prominently than other parts of the United States. In an effort to 
address both issues, the Pacific Islanders are looking more and more to 
renewable and alternative energy sources like solar, wind, geothermal, 
and ocean thermal to provide for their power. What role can and will 
the Office of Energy Efficiency and Renewable Energy play in helping 
these areas move forward with their efforts?
    Answer. As the office with oversight over NREL, EERE will be 
prominently involved in NREL outreach, including the EDIN program.
    Question 34. Comparison to impact of a more modest proposal. The 
Energy Information Administration has analyzed the so-called ``25 by 
25'' initiative, which combines a requirement that 25% of electricity 
be produced from renewable sources by 2025 with a requirement that 25% 
of transportation fuels be derived from renewable sources by 2025. In 
its report issued in September of 2007, the EIA found that this 
initiative would result in average retail electricity prices that are 
6.2 percent higher in 2030 than they would otherwise have been and 
average retail prices for gasoline that are 11 percent higher in 2030 
than they would otherwise have been. The Energy Information 
Administration also projected GDP losses through 2030 of $296 billion 
as a result of the ``25 by 25'' initiative.
    The Alliance for Climate Protection advocates for a ``100 by 2018'' 
shift in the electricity sector, which is far greater than ``25 by 
25''.
    Do you believe that the Energy Information Administration's 
analysis of the ``25 by 25'' initiative is wrong, and if not, are you 
concerned about what the economic consequences may be if the United 
States did attempt to fully convert, by 2018, the entire electricity 
sector to energy resources that the Alliance for Climate Protection 
defines as ``clean''? If so, what is the basis for your disagreement 
with EIA?
    Answer. I am not intimately familiar with the details of the EIA 
analysis. I believe that converting to clean energy sources can be a 
win for the environment, the economy, and our national security.

           UTILITY OF EXISTING LAWS, IF CARBON CAP IS ENACTED

    Question 35. Last Congress, you were an outspoken advocate of 
renewing tax credits for renewable energy sources. Congress is now 
considering a cap-and-trade program that will essentially require the 
purchase of the energy that those tax credits are meant to facilitate 
the deployment of. Both chambers are also considering a mandate for 
renewable electricity.
    If Congress requires that people buy renewable power, should it 
still be subsidized? Is it not enough to have a guaranteed market?
    Answer. A guaranteed market is very important, but some 
technologies are further along than others, and treating them all 
equally could be the death knell for some key technologies that could 
benefit significantly from tax credits.
    Question 36. In light of the facts that natural gas is an abundant 
domestic fuel and is the lowest carbon fossil fuel, what role do you 
see natural gas playing in reducing our dependence on foreign energy 
and in reducing emissions? Do you have plans to expand DOE R&D on 
natural gas technologies?
    Answer. Natural gas falls outside of the jurisdiction of EERE.

     Responses of Catherine R. Zoi to Questions From Senator Wyden

    Question 1. Review of renewable energy programs. It is not news 
that many energy efficiency and renewable energy programs within the 
Office of Energy Efficiency and Renewable Energy (EE/RE) did not fare 
well during the previous administration. At various times, the Bush 
Administration proposed to eliminate the geothermal program, the 
hydropower program, and the weatherization program. Funding for 
industrial efficiency was cut to a third of FY2000 levels. Even within 
better funded programs, such as the wind energy and the biofuels 
program, funding and program priorities were established that severely 
curtailed promising research and development activities such as 
advanced biofuels other than ethanol and offshore wind. And even when 
Congress stepped in to ensure the survival of endangered technologies, 
such as hydro and hydrokinetic energy, the programs have fared poorly. 
The hydro and hydrokinetic programs are not independent activities and 
are now managed as part of the wind program. Will you commit to 
undertake a full review of the DOE efficiency and renewable energy 
programs within your office and report back to this Committee on your 
plans to ensure that leadership teams, staffing, program structures and 
budgets support a robust portfolio of energy technologies?
    Answer. If confirmed, I plan to review the various program offices 
in terms of direction, management, and more. I believe that EERE must 
support a robust portfolio of energy technologies, and I look forward 
to working with this Committee to ensure that we are meeting the 
nation's energy needs.
    Question 2. The role of DOE laboratories in EE/RE programs. The 
DOE's laboratories possess many unique capabilities. However, in some 
areas of energy R&D, such as marine hydrokinetic energy, those 
laboratories have limited experience. Yet, program offices continue to 
rely heavily on DOE laboratories to conduct program activities. For 
instance, the DOE marine hydrokinetic program has issued a solicitation 
for laboratory-directed research which is several times larger in total 
dollar commitment than a simultaneous solicitation for industry 
supported research. At the same time, funding for the Department's 
designated Marine Energy Research Centers are below their needs and 
capabilities. Please explain how you will utilize DOE laboratory 
capabilities within the EE/RE programs and how you will ensure that 
program funding is allocated among laboratory, industry, and academic 
research and development partners.
    Answer. I believe that the expertise of DOE labs is an invaluable 
asset, and we should continue to draw on their capabilities and 
facilities where appropriate. However, I also believe that competitive 
solicitations are vital to investing EERE funds fairly and 
transparently. If confirmed, I plan to work with the labs, academia, 
and the private sector to ensure that monies are being spent wisely and 
to the partners that can achieve the goal of moving developing 
technologies ahead.

       Response of Catherine R. Zoi to Question From Senator Burr

    Question 1. Awnings and window shades are a very cost efficient way 
for consumers to realize immediate energy savings. What is your 
position on supporting research and promotion of these existing energy-
saving products?
    Answer. I believe that energy efficiency is the low hanging fruit 
in terms of reducing costs for consumers, our emissions, and our energy 
use. If confirmed, I look forward to exploring ways to maximize the 
deployment of energy efficient technologies old and new.


</pre></body></html>
